<html>
<title> - FOREST SERVICE MANAGEMENT OF THE NATIONAL FORESTS IN NORTHERN NEW MEXICO</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
   FOREST SERVICE MANAGEMENT OF THE NATIONAL FORESTS IN NORTHERN NEW 
                                 MEXICO

=======================================================================

                             FIELD HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                 AUGUST 15, 1998, ESPANOLA, NEW MEXICO

                               __________

                           Serial No. 105-107

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources



                      U.S. GOVERNMENT PRINTING OFFICE
 51-104 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ENI F.H. FALEOMAVAEGA, Am. Samoa
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                     Doug Crandall, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held August 15, 1998.....................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     3
        Prepared statement of....................................     4
    Redmond, Hon. Bill, a Representative in Congress from the 
      State of New Mexico........................................     5

Statements of witnesses:
    Allen, Sylvia, Arizona-New Mexico Field Director, People for 
      the USA....................................................    40
    Bandy, Paul..................................................    49
    Braden, Dennis...............................................    52
    Chacon, Charlie,.............................................    42
    Chacon, Claudio..............................................    50
    Chacon, Gerald, District Director, Permittee, Cooperative 
      Extension Service, Santa Fe, New Mexico....................     9
        Prepared statement of....................................    79
    Cisneros, Porfirio...........................................    53
    Cordova, David...............................................    39
    Cordova, Max, President, Truchas Land Grant Association, 
      Chimayo, New Mexico........................................     7
    Cowan, Caren, Executive Secretary, New Mexico Cattle Growers, 
      Albuquerque, New Mexico....................................    26
        Prepared statement of....................................    87
    De Vargas, Ike, La Madera, New Mexico........................     6
        Prepared statement of....................................    57
    Eppers, Bud..................................................    48
    Estrada, Gabe, Rancher, Las Vegas, New Mexico................    28
    Hall, Jimmie, President, Production Credit Association of New 
      Mexico.....................................................    41
    Horning, John, Executive Director, Forest Guardians, Santa 
      Fe, New Mexico.............................................    25
    Klinekole, Bruce, Mescalero Apache Cattle Growers 
      Association, Mescalero, New Mexico.........................    12
        Prepared statement of....................................    86
    Luce, Robert, General Counsel, Rio Grande Forest Products, 
      Inc., Espanola, New Mexico.................................    11
        Prepared statement of....................................    80
    Lucero, Richard, Mayor, Espanola, New Mexico.................     1
    Martinez, Palemon, Secretary, Northern New Mexico Stockmen's 
      Association................................................    30
        Prepared statement of....................................    90
    Moore, William...............................................    44
    Morales, Moises..............................................    50
    Posey, R. C..................................................    52
    Reed, Warren.................................................    46
    Sanchez, David...............................................    43
    Sanford, Brian...............................................    47
    Smith, Carl..................................................    46
    Torrez, Ernest...............................................    45
    Vigil, Jake M., Tres Piedras Carson National Forest District, 
      El Rito, New Mexico........................................    23
        Prepared statement of....................................    86
    Wright, Bill.................................................    42

Additional material supplied:
    Estrada, Gabriel and Ray Crespin, Beaver Allotment 
      Permittees, prepared statement of..........................    92



    HEARING ON FOREST SERVICE MANAGEMENT OF THE NATIONAL FORESTS IN 
                          NORTHERN NEW MEXICO

                              ----------                              


                            AUGUST 15, 1998

                  House of Representatives,
         Subcommittee on Forests and Forest Health,
                                    Committee on Resources,
                                               Espanola, New Mexico
    The Subcommittee met, pursuant to notice, at 3 p.m. in the 
Mission de San Gabriel, Number One Calle de los Espanolas, 
Espanola, New Mexico, Hon. Helen Chenoweth (chairman of the 
Subcommittee) presiding.

    STATEMENT OF RICHARD LUCERO, MAYOR, ESPANOLA, NEW MEXICO

    Mr. Lucero. Good afternoon. I think this is too loud. I 
will try not to use it.
    In northern New Mexico, bienvenidos. Mi casa es tu casa. 
Welcome to our northern New Mexico. Our home is your home.
    This is an official hearing before the Subcommittee of 
Congress for Forest and Forest Health before Chairwoman Helen 
Chenoweth and Congressman Redmond of New Mexico.
    I am the mayor of the city of Espanola, and I want to 
welcome all of you to our city, welcome you to this building, 
and I want to tell you a little bit about it. This building was 
built to commemorate 200 years of two cultures meeting 400 
years ago at the junction of the Rio Grande and the Chama River 
here in the Espanola Valley, a continuance of 400 years of 
these two cultures and other cultures living and working 
together in these valleys of Northern New Mexico.
    If we study history, and we should, for whoever doesn't 
know his past never has a future, and that is what we are here 
to talk about, that past and that future, 400 years ago 
settlers, colonizers, came to these valleys of northern New 
Mexico because of what they had been told by many other 
explorers that had come prior to them about the very beautiful 
valleys of northern New Mexico; about the beautiful small and 
large rivers of these northern New Mexico valleys; of the 
beautiful people that lived here; and of the beautiful forests 
that they had here to make their living.
    So a group of colonizers come up the Rio Grande from 
Zacatecas, Mexico, in what is now known as the Camino Real, the 
Royal Highway, from that point to here, to San Juan Pueblo. If 
we would have been here to greet them, we would have seen them 
bringing up cat-

tle and sheep and goats and oxen. They brought them to share 
with the pueblo people of these valleys and to make their 
living from these domestic animals. If we would have been here 
a little longer, we would have seen them sharing with the 
pueblo people the many things that we have shared together for 
these 400 years.
    And we would have gone with them to the forest, and we 
would have cut wood to bring it down here to keep warm in the 
winter and to make our living. And we would have surely learned 
the many herbs, the many plants in those forests that we still 
bring down today as remedies for us. As a matter of fact, I 
took some this morning.
    So, therefore, today we have a lot to talk about and so 
little time to say it. But we thank Mrs. Chenoweth for her 
stand on the importance of the Forest Service continuing to 
serve the people and not to lock them up.
    [Applause.]
    Mr. Lucero. For if the Congress of the United States was to 
lock up the forests and the many grazing lands of New Mexico, 
then you don't just take away from us a way in which to make 
our living today, but you would take away from us history, 
culture, a way of life of two great cultures that have lived 
together here for over 400 years. And we will not tolerate nor 
give up those rights that we have to our natural forests, to 
our land that has been ours for these 400 years.
    [Applause.]
    Mr. Lucero. And the territory of New Mexico, which composed 
in those years a little bit of Texas, a little of Colorado, a 
little of Utah, all of Arizona, all of New Mexico, part of 
Nevada, part of California, made the territory of New Mexico, 
and from this territory of 400 years we have survived many, 
many parts of this Nation's history.
    And the people of this territory of New Mexico have served 
in all of the wars of the United States of America beginning 
with the Revolutionary War, and we are proud of that. And why 
does anybody have the right, after we have fought for it so 
long, to take it away from us now? It is not right. It is not 
proper.
    [Applause.]
    Mr. Lucero. My grandfather took me to the forest many times 
with the sheep, and there we shared not just the fact that we 
took sheep to the forest, but we shared a camaraderie that has 
lived and will live with me forever. Who has the right to take 
that away from their sons? Who has the right to take that away 
from the grandfather that wants to give it to his grandsons and 
grandchildren? That is not right, it can never happen.
    So, therefore, we have for 400 years made our life from 
these lands that were ours originally and the pueblo people of 
New Mexico. We must always demand that they be ours so that we 
can go to the forest. We can go for many reasons to make our 
livelihood in logging, to bring our wood for the winter, pick 
pinon as we have for many centuries, and--I will tell you a 
good one now--and go pick Chimaha. And if anybody wants to know 
what Chimaha is, let me know, and I will tell you after the 
meeting.
    But this is what we share, and this monument is to that 
history, and it will stand solid demanding that this history 
will never be taken away from us, and that this history will 
continue for many centuries to come.
    [Applause.]
    Mr. Lucero. So with those opening remarks, could we stand 
and pledge allegiance to the flag.
    [Pledge of Allegiance.]
    Mr. Lucero. Last night on his way back from Albuquerque, 
one of our great judges of New Mexico was killed in an auto 
accident, Steve Herrera, and I would like to ask you for a 
moment of silence in his memory.
    [Moment of silence.]
    Mr. Lucero. And so we come to the moment that many of us 
have been looking forward to for a long time, to be able to 
present to a lady, a very, very beautiful and important lady in 
the Congress of the United States, who chairs this 
Subcommittee, that I have a great honor to introduce her to you 
and present her to you, Congresswoman, the Chairperson of the 
Subcommittee on Forest and Forest Health. It is an honor to 
introduce to you Helen Chenoweth.
    [Applause.]

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. Thank you. Believe me, it is my honor to be 
with you today in this reproduction of this very historic 
building. I have a sense of spirit of Americanism here that I 
rarely sense, and it is indeed a special honor for me to be 
able to join you today.
    So with that, we will just start the business right now. 
The Subcommittee on Forests and Forest Health will now come to 
order.
    The Subcommittee is meeting today to hear testimony on 
Forest Service management of national forests in northern New 
Mexico. Under rule 4(G) of the Committee rules, any oral 
opening statements at hearings are usually limited to the 
Chairman and Ranking Minority Member, and this will allow us to 
get to you sooner.
    I do want to depart from the usual custom, though, and I 
yield to Congressman Redmond. I don't think there will be any 
objection.
    I am Congresswoman Helen Chenoweth from Idaho, and today's 
hearing will focus on Forest Service Management of the National 
Forests here in northern New Mexico. The Subcommittee is here 
today at the request of Congressman Bill Redmond. He is aware 
of my commitment to see that the Forest Service manages the 
National Forest properly and of my deep interest in listening 
to constituents who are affected by Forest Service policies.
    We are here today to learn firsthand from ranchers, loggers 
and other Forest Service land users about the challenges they 
face on a daily basis. The ``one size fits all'' approach to 
legislating does not take into account the unique cultural and 
natural characteristics of this area, those characteristics 
that we just heard about in such poignant terms. Today's 
testimony will help respond to these unique challenges facing 
this area as we deal with forestry, grazing and endangered 
species legislation in the future.
    In reading about northern New Mexico and talking to Bill 
Redmond, I am fascinated that many people in this area ranch on 
land which originated with land grants that are 400 years old. 
For my own curiosity, I would like a show of hands of those in 
the audi-

ence who are heirs to Mexican or Spanish land grants. Would you 
please hold up your hands?
    [Audience members raise hands.]
    Mrs. Chenoweth. My goodness. Very interesting. It seems 
very obvious to me that people who have been good stewards of 
property for over 400 years have a great deal to teach the 
Federal Government about land management.
    I also understand that many citizens in this area do not 
have access to natural gas and heat and cook in their homes 
with firewood. I would like a show of hands of everyone in the 
audience that heats their homes or cooks with firewood.
    [Audience members raise hands.]
    Mrs. Chenoweth. My goodness. Very interesting.
    At today's hearing I am particularly interested in learning 
more about how the endangered species status listing of the 
Mexican spotted owl has affected residents of this area. Also, 
I hope to learn more about the process by which the Forest 
Service settled lawsuits by radical environmentalists outside 
the courtroom. And it is of particular interest to me, were 
ranchers and loggers involved in the negotiations? What impact 
have these settlements had on public land users and on local 
communities?
    Today's hearings will consist of two panels. Each witness 
will be given 5 minutes to give your testimony, and Congressman 
Redmond will explain the way we work the mikes here. 
Questioning will begin after everyone on the panel has 
completed their testimony.
    After our two panels have finished, the Subcommittee will 
begin an open microphone session. Everyone who is interested in 
speaking at these sessions should sign in on the sheet located 
in the back of the room. Speakers will be allotted 2 minutes 
during this session.
    [The prepared statement of Mrs. Chenoweth follos:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    Good Afternoon. I am Congressman Helen Chenoweth from 
Idaho. Today's hearing will focus on Forest Service management 
of the National Forests here in Northern New Mexico. The 
Subcommittee on Forests and Forest Health is here today at the 
request of Congressman Bill Redmond. He is aware of my 
commitment to see that the Forest Service manages the national 
forests properly and of my deep interest in listening to 
constituents who are affected by Forest Service policies. We 
are here today to learn, first-hand, from ranchers, loggers and 
other Forest Service land-users about the challenges they face 
on a daily basis. The ``one size fits all'' approach to 
legislating does not take into account the unique cultural and 
natural characteristics of this area. Today's testimony will 
help respond to the unique challenges facing this area as we 
deal with forestry, grazing and endangered species legislation 
in the future.
    In reading about northern New Mexico and talking to Bill 
Redmond, I am fascinated that many people in this area ranch on 
land which originated with land grants that are 400 hundred 
years old. For my own curiosity, I would like a show of hands 
of those in the audience who are heirs to Mexican and Spanish 
land grants.
    It seems so obvious to me that people who have been good 
stewards of property for 400 years have a great deal to teach 
the Federal Government about land management.
    I also understand that many citizens in this area do not 
have access to natural gas and heat and cook in their homes 
with firewood. I would like a show of hands of everyone in the 
audience that heats their home or cooks with firewood.
    At today's hearing I am particularly interested in learning 
more about how the endangered species status listing of the 
Mexican Spotted Owl has affected residents of this area. Also, 
I hope to learn more about the process by which the Forest 
Service settled lawsuits by radical environmentalists outside 
the courtroom. Were ranchers and loggers involved in these 
negotiations? What impacts have these settlements had on public 
land users and local communities?
    Today's hearing will consist of two panels. Each witness 
will be given five minutes to give your testimony. Questioning 
will begin after everyone on the panel has completed their 
testimony.
    After our two panels have finished, the Subcommittee will 
begin an open microphone session. Everyone who is interested in 
speaking at this session should sign-in on the sheet located in 
the back of the room. Speakers will be allotted two minutes 
during this session.

    Mrs. Chenoweth. I now yield to your Congressman Bill 
Redmond for his opening statement.
    [Applause.]

 STATEMENT OF HON. BILL REDMOND, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Redmond. Thank you, Congresswoman Chenoweth, for coming 
to New Mexico today, northern New Mexico, and I want to thank 
you, Mayor Richard Lucero, for being such a gracious host. I 
don't think there is another person in all of northern New 
Mexico who is as gracious as Mayor Lucero. Let's give him a 
round of applause.
    [Applause.]
    Mr. Redmond. Two years ago we lost about 30,000 acres in 
the Jemez Mountains with the Dome fire, and most recently, just 
a couple of months ago, just weeks ago, we lost thousands of 
acres again in the Jemez Forest, a fire endangering the 
watershed for Santa Clara Pueblo, which is right up the road, 
and it is very obvious to everyone, and it is evidence to all, 
that it is time that we come to the table to discuss the 
futures of our forests as they relate to the community.
    I believe the quality of life in the forest is directly 
linked to the quality of life in the community, and I believe 
we should look at our past to see how we have been stewards of 
the forests in northern New Mexico and leave the management of 
the forest to the continuation of our culture in northern New 
Mexico.
    I believe that we should be very supportive of la tierra, 
and so the purpose of this is to hear from as many people as 
possible as to what suggested direction we take for the health 
of our forest, and without further ado I want to explain to you 
the light system.
    Here on the table in front of me right at Max Cordova's 
left hand--this is a demon that was invented in Washington, DC. 
It looks like a traffic light, and that is exactly what it is. 
Since this is an official hearing, we have to abide by the 
Rules of the House of Representatives. We can't bend the rules 
out here in the field. So instead of flying you all to 
Washington, I believe Washington should come to you, and this 
is what we have done.
    [Applause.]
    Mr. Redmond. So the protocol is as each of you are giving 
your testimony, while the light is green, you can keep talking 
and feel very comfortable that you have ample time left. As 
soon as the light turns yellow, you have 60 seconds to complete 
your testimony, and then when the light turns red, Erik from my 
office will come and yank you out of the chair and kick you out 
the front door. So since some of you know Erik, you don't want 
that to happen. But the red light means that officially you 
cannot continue to speak.
    And then afterwards we will have an open microphone, but 
for the official testimony part, we do have to go according to 
the rules of the green, yellow and red lights. OK, thank you.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Congressman.
    I would now like to introduce our first panel: Ike de 
Vargas from La Madera, New Mexico; Max Cordova, president of 
Truchas Land Grant Association, from Chimayo, New Mexico; 
Gerald Chacon, district director and permittee, Cooperative 
Extension Service, from Santa Fe, New Mexico; Rob Luce, general 
counsel, Rio Grande Forest Products, from Espanola, New Mexico; 
and Bruce Klinekole, Mescalero Apache Cattle Growers 
Association, from Mescalero, New Mexico. Welcome, everyone.
    As explained in our first hearing, it is the intention of 
the Chair to put all outside witnesses under oath. This is a 
formality of the Committee that is meant to ensure open and 
honest discussion and should not affect the testimony given by 
the witnesses. I believe that all of the witnesses were 
informed of this procedure before the hearing today, and they 
have each been provided a copy of the Committee rules.
    And so if you will all stand with me and raise your right 
hand.
    [Witnesses sworn.]
    Mrs. Chenoweth. Now we will begin with Mr. De Vargas.

       STATEMENT OF IKE DE VARGAS, LA MADERA, NEW MEXICO

    Mr. De Vargas. Thank you, Chairwoman Chenoweth. Thank you, 
Congressman Redmond. I am very happy to be here and be able to 
testify before this Committee. I am particularly thankful to 
Congressman Redmond's position that Washington should come out 
to the people. I guess it doesn't surprise me a bit, because 
during the period of time when we were litigating over the 
amount of timber sale and the units, Congressman Redmond went 
over there to some of our property, and he looked at the forest 
and saw what we were talking about. So thank you very much for 
that Congressman.
    I am a member of a small logging and milling outfit out of 
Villacito. The Villacito is a tract of land that was created by 
Congress under the state yield forest land grant back in 1944. 
The unit itself was created by the Secretary of the Interior in 
1947.
    Ostensibly it was to benefit the local people by providing 
the continuous and steady flow of timber products. We in 1994 
formed our co-ops and decided to start working in other areas 
and try to help our local economy. We had a lot of problems 
with the Forest Service from the outset. There was a great deal 
of resistance to a small company getting a toll booth in our 
area, and so we did it anyway. It was difficult.
    The way we got our financing was that the Forest Service 
promised us in a written letter that we would have 50 years at 
least of timber. That was marketable and bankable for banks. So 
shortly thereafter we got shut down, and we were unable to work 
for a considerable amount of time. Needless to say we had 
already been loaned the money. We already had a debt load we 
had to deliver. It was extremely difficult given that us rural 
people were not wealthy and just working out of guts basically.
    The way the Endangered Species Act--specifically the 
spotted owl, the Mexican spotted owl thing was especially 
wrangling to us because we knew there were no animals of that 
nature here. They hadn't been here historically. In fact, a 
study was made in the 1830's that lasted 7 years in which in 
the northern part of New Mexico only five spotted owls were 
sighted. They were not even sighted, there were three sighted. 
One of them was killed to study by biologists, and none have 
been seen since.
    So we were very perplexed that the entire region, entire 
area, would be designated as critical habitat for the spotted 
owl. It didn't seem appropriate because, if we are going to set 
aside habitat for nonexistent owls, then we can set aside land 
for anything, elephants maybe or tigers. Any endangered species 
could probably be introduced in here, and if it doesn't get 
designation of critical habitat, it is going to be done 
arbitrarily and capriciously.
    We have situations where the courts have ruled that the 
Forest Service cannot proceed to enforce agreements with the 
environment groups. They do it anyway. The Forest Service has 
not been a good neighbor to northern New Mexico for a long 
time. It is just recently that they have been starting to think 
about working with us as a result of the controversy regarding 
the land management years. The people are extremely resentful.
    I would like to make one comment. There was a newspaper 
article in which some Congressman wrote requesting to find out 
from the Forest Service who was involved in environmental 
groups being referred to as a McCarthy Act. The environmental 
groups have ostracized other environmentalists that have had 
the temerity to stand up for the community, and there are quite 
a few of them.
    It is amazing how bad a rap the entire environmental 
community has gotten because of a few fringe groups that insist 
on imposing their agenda on a people that have lived on the 
land for so long and for so long to be proven to be good 
stewards of that land.
    [Applause.]
    Mr. De Vargas. Having said that, I would just like to say 
one more thing to Congressman Redmond. Thank you very much for 
taking a serious look at the land grant question. That land 
grant question is a question of justice for the people of 
northern New Mexico. Thank you very much.
    Mrs. Chenoweth. Thank you, Mr. De Vargas. The time goes so 
fast. We'll be back to you asking questions though.
    [The prepared statement of Mr. De Vargas may be found at 
end of hearing.]
    Mrs. Chenoweth. Max Cordova.

    STATEMENT OF MAX CORDOVA, PRESIDENT, TRUCHAS LAND GRANT 
                ASSOCIATION, CHIMAYO, NEW MEXICO

    Mr. Cordova. Madam Chairwoman, Congressman Bill Redmond, 
thank you very much for the opportunity to come and speak to 
you as a public witness here. I am Max Cordova of the Truchas 
Land Grant in Truchas, New Mexico. Our land grant was given to 
us by the Government of Spain in 1754, the Government of New 
Mexico in 1829, and most recently the Government of the United 
States in 1892.
    This land grant and others were guaranteed under the Treaty 
of Guadalupe de Hidalgo. Problems we are facing today is that 
most of our successful land is now under Forest Service 
management. Our right to this land is--I have documented in a 
paper that is documented in archive paper 771 that goes back to 
March of 1754. That paper speaks of us having access to public 
land and to the forests and to the water.
    In 1998, we are still very forest-dependent. Some of the 
problems that we are facing today are unemployment; diminished 
access to Forest Service land for fishing, for grazing for 
hunting, personal use, building materials and firewood.
    One of the biggest problems we are facing is poverty in the 
area. Because of the poverty that we have in the area, it is my 
belief that the Forest Service must walk hand in hand with us 
in any policy they undertake.
    The uniqueness of our land and our people is clearly 
captured in the Region III policy for managing lands in 
northern New Mexico. Sadly to say, this policy has yet to be 
implemented in northern New Mexico.
    The Mexican spotted owl, the Forest Service management 
policies are having a serious affect on the health and welfare 
of our communities.
    In 1995, an 18-month injunction was--we went through an 18-
month injunction as a result of a lawsuit against the Forest 
Service for firewood that we needed to cook our food and to 
heat our homes. To add insult to injury, an agreement was 
reached by these two entities, an agreement that left us out 
completely of the agreement.
    It is our belief that any plan that the Forest Service 
brings should consider traditional and historical uses, because 
the people have many ties to the land.
    The unwillingness of the Forest Service to implement these 
grants are happening because of the fear of lawsuits by 
environmental groups. This is seriously hurting forest 
restoration of our communities.
    The Endangered Species Act, it is our opinion, also needs 
to be revisited, not with the idea to weaken the Act, but to 
strengthen the Act. Too often land-based communities are 
victims of well-intentioned policies that fail to use them as 
part of the ecosystem.
    Second, science. Science needs to be applied to the Forest 
Service. Right now the biggest thing that is recommended is 
lighting a match to it. Is this really the best that we can 
come up with as we restore the Forest Service lands?
    In closing I would like to say that I would like to bring 
the land grant issue into focus, because we are being blamed 
for many wrongs in New Mexico by the Forest Service. Recently a 
Forest Service supervisor from Santa Fe National Forest pointed 
out in a national syndicated column that three forest service 
ranger stations and many Forest Service signs have been burned 
or bombed. In the same breath, he seemed to infer that land 
grant people were responsible for these cowardly acts.
    Although I admit to you that the actions of the Forest 
Service to take away Forest Service resources from the people 
has caused much dissent in northern New Mexico, but I believe 
that we all want the same thing: Healthy forests, clean and 
abundant water, and viable rural economies, and the fuel to 
heat our homes and to continue to service.
    Thank you, Madam Chairwoman.
    [The prepared statement of Mr. Cordova may be found at end 
of hearing.]
    Mrs. Chenoweth. Gerald Chacon.

   STATEMENT OF GERALD CHACON, DISTRICT DIRECTOR, PERMITTEE, 
      COOPERATIVE EXTENSION SERVICE, SANTA FE, NEW MEXICO

    Mr. Chacon. Thank you, Representative Chenoweth. Welcome to 
New Mexico.
    This year marked the 400th anniversary of livestock 
production in northern New Mexico. My own family has 
continuously raised livestock on our private and surrounding 
lands for at least the last 168 years that we are aware of.
    Each of you must clearly understand, and I am sure you are 
very well aware, that most of the Carson National Forest and 
the Santa Fe National Forest were all part of Spanish and 
Mexican land grants. Our people have always been land-based 
livestock producers with a successful history of livestock 
production going back to ancestral Spain. Look on any Forest 
Service map in northern New Mexico, and nearly every mountain, 
stream, and spring and pasture are Spanish names and places.
    Today, as in our past, we have a proud history of serving 
the community and working with government, even when that same 
governance took community lands for the establishment of public 
domain. Still today title to much of the forest land is not 
clear.
    There are currently just over 2,000 families grazing on 
U.S. forest and BLM land in northern New Mexico. These 
permittees run on the average of less than 50 head. Eighty-
seven percent of these families are Hispanic. There are 327 
families using public land for grazing in Rio Arriba County 
alone.
    These public lands sustain 60 percent of these ranchers' 
livestock forage needs each year. Total gross receipts from all 
livestock in this county range between $7.8 and $14.7 million. 
This industry is very significant for a county whose population 
already has a 10.7 percent unemployment rate and where 23.5 
percent of the families live below the national poverty level.
    There are 3.5 million total acres in this county, with 1.3 
million U.S. Forest Service land, 50,000 acres of BLM land, and 
647,000 acres of Indian tribal land, and 108,000 acres of State 
land.
    The majority of resources available for our economic well-
being come from the public lands. Access to those resources are 
key to our communities' and cultures' ability to survive. The 
processes that would allow continued access are largely 
threatened by misinterpretation and misuse of laws and policies 
originally intended to preserve and protect the environment of 
these lands.
    The single most disruptive force in our rural communities 
today is the misuse of the Endangered Species Act and the 
scores of pro-

cedures that are required to enact it. The legal interpretation 
of this once well-supported law have succeeded in driving 
wedges between environmental organizations, ranchers, loggers, 
miners, recreation industry and the U.S. Forest Service. More 
recently, cities, towns and county commissions have been forced 
to defend themselves and their constituents from the never-
ending problems the Endangered Species Act creates for them.
    Growing numbers of credible science organizations and 
institutions seriously criticize its overall effectiveness. 
Identifiable errors in the determination of what is endangered 
and threatened have been identified. Wrongful determinations of 
endangered and threatened status have been exposed, and some of 
the records of recovery from the Act itself is seriously 
questioned by the science community.
    The immensity of problems and opportunities for legal 
wrangling are too large to even comprehend or to ever solve. 
Land-based people are doomed to a life in the courtroom. We 
desperately need your help to develop law and action plans that 
recover species with the involvement of land-based people, not 
in spite of them.
    Law and policy interpretations that remove people from the 
land are sure to fail in the long run. Laws that put people 
against people cannot heal the environment or the economic 
status of rural communities. Law and policy of agencies which 
takes rights, property, punishes, fines and incarcerates are 
sure to fail in the long run. Rather, incentives for land-based 
people to participate willfully in conservation efforts have 
historically proved most effective.
    One only has to look at what has been done working 
cooperatively to recover game. Ducks, geese, wild turkeys, elk, 
buffalo and many others, some of which were nearly extinct, now 
thrive.
    We have the science, the money and the will of the people 
to accomplish anything we set our collective minds to do. The 
government and the people should not expend all of our 
financial, mental and physical resources to fight each other in 
the courtroom. I choose to think we are smarter than that, and 
when given a useful and balanced opportunity to find a way, we 
will find a win for the national resources and a win for 
people.
    We need your help to balance the scale of opportunity. 
Rural northern New Mexicans cannot outspend national 
environmental organizations within the endless streams of 
financial and legal resources. Poor science, laws without 
clarity and policy interpreted by the whim of any individual 
without consideration for people will only worsen our 
situation.
    The more than $2 billion spent by agencies since 1990 for 
recovery would have gone a long way to diversify forest 
habitats had we allowed for sustained timber harvest, thinned 
overcrowded forests, developed watering for livestock and 
wildlife, used prescribed burns, controlled brushy species and 
otherwise enhanced wildlife habitat. Currently we lose 1 
percent of our forest ecosystem grasslands each year due to 
encroachment of trees in the Santa Fe and Carson National 
Forest. Catastrophic fires consume forest resources and budgets 
of the agencies who fight them.
    Paperwork, hearings, budget, documentation, notification 
are the business of government agencies these days. No longer 
is range science, forestry, soil science, wildlife science and 
recreation the business of the Forest Service.
    Thank you.
    [Applause.]
    Mrs. Chenoweth. Thank you, Mr. Chacon.
    [The prepared statement of Mr. Chacon may be found at end 
of hearing.]
    Mrs. Chenoweth. The Chair recognizes Rob Luce.

 STATEMENT OF ROBERT LUCE, GENERAL COUNSEL, RIO GRANDE FOREST 
              PRODUCTS, INC., ESPANOLA, NEW MEXICO

    Mr. Luce. Madam Chairwoman, Congressman Redmond, my name is 
Robert Luce. I am here today representing Rio Grande Forest 
Products, which is located here in Espanola.
    On behalf of Rio Grande, we would like to thank you for the 
opportunity to present testimony today on such a critical 
issue, but especially for bringing Washington to Espanola. It 
is very, very difficult for us to take our message back, and we 
appreciate all of your efforts and thank you very much for that 
opportunity.
    Rio Grande operates the largest sawmill in the State of New 
Mexico. The mill has been located here in Espanola for over 20 
years. We employ approximately 100 people and estimate that 
over 1,000 families are dependent upon Rio Grande in some way, 
either through logging, delivering logs or whatever.
    The logs we process are harvested from public and private 
lands as well as tribal lands. We do not endorse so-called 
clear-cutting. We do not strip the land of every manufacturable 
tree. All of our logging operations are managed by three 
graduate and professional foresters.
    The best way for all of us to evaluate whether our current 
policy is actually working or not is to actually go out into 
the forest and look. Unfortunately we can't do that today, so I 
did the next best thing. I brought some photographs for you. 
What I would like to do is show you the difference between a 
well-managed forest that is occurring on private land versus 
what we are seeing in the Federal arena.
    The first photographs that I have for you, photograph No. 1 
was taken at White Mountain Apache Reservation. This shows a 
stand of ponderosa pine with overstory, a vigorous stand of 
young pine regenerated between the seed trees. Broadcast 
burning removes the competitive vegetation and allows young 
trees and native grass to establish and thrive.
    If you look in photograph No. 2, this is what we are seeing 
on unmanaged land: Typical young stands of blackjack ponderosa 
pine, dense crown closure preventing grass seedlings and 
growth. The smaller trees in the background would carry 
wildfire from crown to crown. Notice in the bottom portion of 
the photograph that there is no grass and no seedlings growing.
    Fort Apache has been managing the forest since the 1950's. 
At that time they estimated 1 billion board feet of timber in 
the early 1950's. For the past 30 years they have cut 30 to 50 
million board feet of timber annually. The BIA estimates today 
are 100 billion board feet after 30 years of cutting.
    The controlled burning and the selected harvesting has 
reduced the risk of fire there, and when you contrast that 
situation with the next photos, especially photo No. 4, which 
is the Hondo Complex fire near Questa, the result is the 
possibility to have regeneration and growth for years, not lose 
valuable timber and prevent forest fires like occurred at 
Hondo.
    So the challenge for us today is to decide which way we 
want to go. Do we want to manage our forest as like has 
occurred at White River, or do we want to continue on with no 
thinning, no controlled burning and then suffer the 
consequences of the situation that occurred at Hondo and some 
of the other fires we have had recently.
    To make matters worse, at Hondo--I want to make sure I get 
these numbers correct for you--the Forest Service estimates 
that 7,700 acres of timber was burned in that fire. Carson 
National Forest estimates approximately 4.1 million feet of 
timber was lost. After 2 years, there have been six small 
salvage sales prepared and less than 10 percent of that volume, 
and only three have been sold and one of the salvages 
harvested. Our mistakes in letting trees burn and letting 
national forest burn is by then prohibiting people from 
salvaging that timber that otherwise is rotting and becoming 
bug-infested.
    I am used to these little clocks here.
    In closing what I would like to do is challenge each of to 
you take these photographs back to Washington and have your 
colleagues look at the pictures and have them answer these two 
questions: Does our current land management policy protect the 
living forest, or does it actually promote the waste of the 
renewable resource; and second, has the current land management 
policy reduced the risks of wildfire, or has it actually 
increased the risks of environmental degradation.
    We believe there is a better way. Our view is to follow the 
example that is being set by the White Mountain Apache Tribe 
and other privately managed forests if we are truly interested 
in doing the best possible job of managing several timberlands 
and Forest Service for everyone. Thank you.
    [Applause.]
    Mrs. Chenoweth. Thank you, Mr. Luce.
    [The prepared statement of Mr. Luce may be found at end of 
hearing.]
    Mrs. Chenoweth. The Chair recognizes Bruce Klinekole.

 STATEMENT OF BRUCE KLINEKOLE, MESCALERO APACHE CATTLE GROWERS 
               ASSOCIATION, MESCALERO, NEW MEXICO

    Mr. Klinekole. Before I want to say to my brothers behind 
me, I don't want to turn my back on you, but this is the way 
they set us up.
    First of all, I want to welcome you, Congressman and 
Chairwoman, to New Mexico from all Native Americans here in New 
Mexico.
    Again, touching on Mr. Rob Luce's valid point, this is what 
we are doing on the Mescalero Reservation in the southern part 
of New Mexico. We are doing the same thing with the Bureau of 
Indian Affairs and the Department of Interior.
    We do kind of touch on Mr. Luce's comment on clear-cuts. We 
do that when we have a lot of diseased trees in order to cut 
back. That is the only time we have that. We have crews that 
thin out and come right behind it to thin out and put grass 
seed back on top of that.
    On our reservation in Mescalero, which is located in south 
central New Mexico, we have close to 4,000 head of cattle we 
run on our reservation. We have big game hunts. We have every 
kind of animal on our reservation, even the spotted owl. We 
contend with those, too.
    But kind of touching on other things, we do prescribe burn 
during the wintertime. We don't burn during the summer. We run 
pipelines, we develop a lot of our springs, and we run 
pipelines and storage tanks for all of our cattle. When all of 
these animals are moving around the forest, it breaks up the 
forest up and moves the ground around, and here comes the 
grass. We have real lush, grassy vegetation.
    That photo number 1, that is the way our forest looks in 
Mescalero compared to the one to the south of us as well as to 
the north of us. The forest land is so crowded, there is 
nothing under it. The squirrels and chipmunks have nothing to 
run on, they have nothing to play on except the dry dirt. 
Compared to what we have in the first photo there, that is 
basically what we have because we have thinning crews. We have 
two or three crews that go out and thin the trees out.
    As far as the tree cutting, we are planning for the future. 
We cut little trees here and there, but we don't cut them all 
down. We leave the big trees. We leave different ones in 
different places, and we also cut our mature trees. Those that 
are prone to lightning we cut down because they are 
structurally too big, and we need to cut them down.
    Again, mentioning our prescribed burns, you mentioned 
prescribed burns. Before we burn an area, we let our Tribal 
Council and tribal people know. We go in there and let the 
people cut everything that is in there, whatever they want; 
juniper, oak, whatever they want, they go in there and cut it, 
and then we come in with another crew, and they pile all the 
brush up, and then we burn it. But this is to make clear for 
grazing land for wildlife as well as our cattle.
    So again, we sell fence posts. We put the firewood back 
into our homes. I would say maybe 65 percent of our people in 
Mescalero burn on the ground and pine. So we use the land.
    One of the things I wanted to touch on is every year we 
have a coming of age ceremony, and almost approximately 500 
trees are cut down for personal use. Each one of these trees 
are prayed for by medicine men as well as me. When my daughter 
was coming of age, we prayed for these trees. We are saying, 
Creator, thank you for these trees. And then when we cut them 
down, we put that back; not give it back to the people, to the 
Creator. We have to give it back to him to hide from the wind, 
to hide from the rain. So that is why we say thank you.
    Again, the forest, as you know, as everybody knows, it 
takes a long time to regenerate, but we are planning our 
situation to where when my great-great-grandchildren are here, 
hopefully they will see I have planted many, many trees.
    And in summary, I would say, again, our wildlife and cattle 
live in harmony with each other.
    And, Mr. Mayor, I want to comment on one little thing you 
said. We need to make time. He said we don't have time. We need 
to make time so we can talk about our problems and let us hear 
what is going on.
    I invite you all to come down to Mescalero. The only thing 
is you have to have reservations.
    [Laughter and applause.]
    Mrs. Chenoweth. Thank you very much, Bruce. That was 
outstanding testimony.
    [The prepared statement of Mr. Klinekole may be found at 
end of hearing.]
    Mrs. Chenoweth. The way we do things in these congressional 
hearings, I will yield first to Mr. Redmond for his questions.
    Mr. Redmond. Thank you, Madam Chairwoman.
    I am going to go down the line here with some questions we 
have developed in listening to your testimony.
    Mr. Vargas, could you tell us a little more about the 
Forest Service letter that insured 50 years of use of the 
forest and how that came about to be denied?
    Mr. Vargas. Well, it was kind of strange because they first 
would not allow us to become designated operators in order to 
buy timber. At that time we were logging, subcontracting lumber 
for Duke City Lumber.
    The Forest allowed for the local people to get so many 
board feet of actual lumber per year for their own operations. 
They had a pretext that if we didn't have an existing sawmill, 
we couldn't be designated as saw timber operators. It was 
simply a pretext to keep us out of the forest. We had to 
litigate that with the Forest Service.
    Mr. Redmond. Thank you, Ike.
    Max, on the Region III policy, managing national forest 
land in northern New Mexico, how much can the Forest Service 
improve the policy?
    Mr. Cordova. We feel it is a good policy and it speaks to 
the people of northern New Mexico. Right now the policy is, we 
are told--is philosophical in that is doesn't have any teeth to 
it. Basically what we would like to see is that the Forest 
Service use this as the oil for managing the lands we have here 
in northern New Mexico.
    It is a good policy. It has a future, but it hasn't been 
implemented.
    Mr. Redmond. OK. When Chairwoman Chenoweth and I go back to 
Washington, what can we recommend to put teeth in the policy?
    Mr. Cordova. Well, for one thing, we would like to see it 
be a part of the Region III Forest Service plan. You really 
have to look at the policy to understand what it is really 
saying. It speaks of conditions, it speaks of vision, and it 
speaks also of consequences if it is not implemented, and I 
think those consequences are what have us at this hearing 
today.
    Mr. Redmond. Can you identify some of those consequences?
    Mr. Cordova. One of the things the policy does is it speaks 
of the people as being a resource, also to be considered a 
resource in the land.
    It also speaks that the Forest Service must direct its 
efforts into preservation of the Spanish American and Native 
American cultures. The policy basically is--it is a good 
policy. It needs to be implemented. The policy was done in 
1968, 1972, and here we are 1998, and it is still not being 
implemented by the Forest Service.
    Mr. Redmond. Thank you.
    Mr. Chacon, what would you specifically recommend to 
improve forest health?
    Mr. Chacon. Very simply there are a number of different 
practices that we know are very useful in terms of correcting 
the problems we have with forest health, and that is many of 
the things that were addressed here by all of the individuals 
on this panel, primarily allowing for a sustained type of 
timber harvest.
    We have to thin many of the smaller stands of timber, in 
order to relieve the amount of fuel and provide for materials 
and things that are necessary for people to make a living here.
    The other thing that we have here that is a major problem 
in this particular area, we have some brushy species, and in 
order to reduce the fire, historically we have to get a brush 
management plan established specifically for the big sagebrush, 
gamble oak, primarily the ones that are causing significant 
problems for us and are part of the--what are causing the 
reduction of the amount of grasslands we have in our forests. 
We have to restore a portion of our forest to a grassland as 
was historically the way it was.
    Mr. Redmond. Do you have anything more you want to say?
    Mr. Chacon. Basically the other thing is over the last 20 
years or so, people have been removed from me being able to get 
input to the Forest Service for what needs to happen in their 
surrounding communities. The Forest Service can't have an 
advisory committee because of Federal law that prevents those 
sorts of things, so we have to dance around the issues of 
having advisory access to the Forest Service that would help us 
to address some of these things.
    So we really need to get the communities involved in the 
management of public lands as we had a couple of decades ago. 
We don't have community forests the way we did in the past.
    The people know what to do. They have lots of ideas. We do 
need recurring funds in order to invest back in the land. We 
only get one-fourth of our grazing fee comes back to the 
district in order to do range improvements, and it is hardly a 
pittance of dollars that can't go far enough in terms of what 
needs to be done; a higher portion of that or other benefits in 
order to have a working amount of money so that we can do some 
things on the land and not just let it sit.
    Mr. Redmond. One of the things that you pointed out was not 
enough access for review and for input. Would you--let me see a 
show of hands of people who would like to see something like 
this, an annual review of policy so the people have more access 
to the policy as it is written in Washington?
    [Audience members raise hands.]
    Mr. Redmond. Mr. Klinekole, a couple of questions. Thank 
you for the invitation. We will make reservations before we 
come.
    Mr. Klinekole. We have an 800 number.
    [Laughter.]
    Mr. Redmond. Some would argue that because tribal lands are 
not regulated to the same degree as public lands, that you are 
not subjected to such programs as the ESA and Clean Water Act. 
Do you believe there will be a time when environment leaders 
will seek to control tribal lands?
    Mr. Klinekole. I hope not. We have a trust responsibility 
with the Government of the United States of America, and it is 
too sad to say that we were--I hate to say this--but we were 
here, and then to have the U.S. Government go against trees 
which were given to us in the 1800's, and then they put us on 
little allotments on little reservations.
    Ulysses S. Grant, who gave us the reservation back in 1855, 
he didn't know it, but he gave us a little bit of heaven. We 
have a lot of pastures, a lot of timber, we have a lot of 
water, we have snow, we have every kind of recreation that you 
can imagine, even a casino. I hope and pray that this doesn't 
happen to us Native Americans.
    Again, getting back to something, that it is the trust 
responsibility. Everybody else is having problems with their 
lands, their private property. I feel for them. But me as a 
Native American, I feel very sad, especially for my great-
grandchildren, if someday they can see that this used to be 
ours, but now this is not ours no more. This belongs to people 
who came from across the ocean, you know.
    And that is what makes me sad. I hope that this does not 
happen, but it could. It is around the corner. We can't dodge 
it, but with your help and, Chairwoman, with your help, I am 
sure maybe we can resolve this in a good way. Like I say, we 
have to make time.
    Mr. Redmond. I was just wondering, looking at the photos 
and hearing your testimony, in your dealings with the Forest 
Service officials and employees, and they look at how you 
manage compared to how other lands are managed, do they ever 
wish they could manage the lands the way that you manage the 
lands, or do they talk to you about, gee, we wish you would 
come to Santa Fe and show us how to do that?
    Mr. Klinekole. Well, one thing I have to kind of say is I 
do not directly work with the Forest Service, I mean with the 
tribal lands. I live on the reservation. We have a good 
communication on our reservations. We know what is going on. We 
can see it. When there is a problem, we have that right to talk 
up. We don't petition. We come together and we talk about 
things, and we say, this is not right, and we take it to the 
Tribal Council, and they talk it over, and we go back.
    Again, this is not United States Forest Service. We are 
talking about the Bureau of Indian Affairs, U.S. Department of 
Interior that we deal with. We are different. But again, we 
have had really good luck with that particular division or 
Department of Interior, Babbitt--is that Babbitt? We have been 
having good luck with him lately.
    But again, the people are agency foresters who are on the 
reservation. They are hired by the council, they are outside 
people, they are Anglos and they are Spanish. They are not 
Indian. There are only two or three Native Americans right now 
on the Forestry who are in that particular field now, who are 
graduating college.
    But in the long run, hopefully we can get enough Native 
Americans in there where we can run our own reservation the way 
we want to. Hopefully the U.S. Government will not take that 
land away from us. That is all we own right now. That is the 
only territory we have got.
    So we have to hold on to what we have got. If there is any 
discrepancy as to why we can't take care of the land, I don't 
know how they can say we don't deserve that land when we take 
care of it. We do the best we can. We develop our springs. We 
provide fences for our cattle to graze in different sections. 
We have cut the timber as to what is needed.
    Again, getting to back to what my fellow brothers here have 
said, our fire reduction is way down, because when you have 
little kindlings, it just keeps getting higher and higher, and 
when you have grass on the bottom, there is really nothing 
there to worry about. We take care of that. We have a very, 
very low fire danger. We don't have that problem of crowning 
anymore because of the things we have done with the forest. We 
worked them.
    I hope that answered your questions.
    Mr. Redmond. OK, thank you.
    That concludes my questions.
    Mrs. Chenoweth. Mr. Klinekole, what do you think the 
environmentalists with whom you are involved in the reservation 
lands--do they comment to you; do they make it public?
    Mr. Klinekole. No, we have not had any problems. We don't 
see them very much there. Like I said, you have to have a 
reservation. In a way that is a joke, but it is true. We don't 
let anybody on our reservation. You just don't go on the 
reservation when you feel like it. You have to go through the 
council and ask permission, and you are escorted in because 
that is our land.
    So, therefore, we do not allow any environmentalists on our 
land. This is again what we want.
    [Applause.]
    Mr. Klinekole. This is what Ulysses S. Grant, back in 1855, 
provided us with this little heaven down there in south central 
New Mexico.
    Again, to answer your question, I sincerely hope and pray 
that this is kept like it is because that is all we have. We 
don't have the land that we used to, the Mescalero Apache. 
Again, we used to go from Arizona all the way up through Las 
Cruces, all the way down to Texas and all the way down 
Arkansas. That was our homelands. But now we are just put on a 
little reservation, which is a beautiful place. No problem. We 
have enough land try to work with anyway.
    Mrs. Chenoweth. Mr. Klinekole, how have the Mescalero 
Apaches dealt with the Endangered Species Act? How in the world 
could you deal with a Mexican spotted owl without the 
imposition of the Endangered Species Act? How do you do it?
    Mr. Klinekole. This book here is--and I am sure it is 
available--it is called the Mescalero Timber Trust. I was 
looking at it when I was in my van a while ago, kind of 
documenting things, because it is made for our future 
generations. It tells a history of all of our people as well as 
all the sawmills, as well as all the cutting that we have done 
from the 1800's to now--well, I take that back, back to 1981 
when this book was published. When this book was published in 
1981, you look at the index, there is no such things as a 
Mexican spotted owl.
    [Applause.]
    Mr. Klinekole. The only thing that is listed in the index 
is the Mexican pine, and they talk about the Mexican ponderosa 
pine in this book, and that is the only thing they talk about. 
So when did this Mexican spotted owl come onto our reservation? 
I don't know when this came in, you know. We don't know.
    Again, this thing is written from the 1800's to 1981, and 
it does not mention no environmental group, it does not mention 
nobody, no spotted owl, so I don't know where it came from.
    Thank you, Ike, for that.
    I got that off Ike because he mentioned it. As far as he 
knows, he doesn't remember seeing any Mexican spotted owl 
either.
    But anyway, getting back to that, if we do find any spotted 
owls, our foresters, we have a buffer zone of 100 acres just to 
contend so we won't be in violation of anything, but we do--
that is the only thing we have. We have around the habitat of 
the spotted owl of 100 acres, that is all.
    Mrs. Chenoweth. Do you know of any books that were 
published before 1980 that mention the Mexican spotted owl?
    Mr. Klinekole. I can't.
    Mrs. Chenoweth. Do any of you know of references published 
before 1980?
    Mr. Vargas. There was a study done in 1940, I believe, it 
was a specific study on spotted owls, and they found them in 
Salinas, New Mexico, and Arizona, and they found two pairs, two 
of them in the Jemez Mountains. They heard one in Santa Fe, and 
they saw two in Taos. They killed one of them, and they did 
some studies. And they went back and they didn't find them, and 
so the conclusion was they were basically out of their range, 
they were just passing through. None of them have been found. I 
have a copy of it. I would be happy to mail it.
    Mrs. Chenoweth. I would be very interested if you would 
like to do it.
    Mr. Vargas. I would like to mail it.
    Mrs. Chenoweth. Thank you very much.
    Bruce, before we leave you, do you have anything else you 
would like to add?
    Mr. Klinekole. There was a poster that my friend--I am 
sorry, I have forgotten his name, I am real bad with names. 
That is how come they put this here in front of you. Anyway he 
had a little poster of Sitting Bull and of something that 
pertained that you promised us many things, and now you are 
trying to take it away; is that right?
    Mrs. Chenoweth. That's right. ``The government has made us 
many promises.'' Sitting Bull said this to a joint session of 
the U.S. House and Senate. Sitting Bull said it as he addressed 
that joint session. ``The government has made us many promises 
and never kept but one. You promised to take our land, and you 
took it.''
    Mr. Klinekole. I think that's my last comment, and I thank 
you for showing me that. I remember seeing, but I forgot all 
about it. There are some things that I see and hear, and this 
little guy up here can't comprehend them. And I thank everybody 
for being patient of what I have said, and hopefully I left 
with a good feeling with everybody. Thank you.
    [Applause.]
    Mrs. Chenoweth. Thank you.
    Ike, I have some questions for you, and then I will work my 
way back to Rob Luce.
    You mentioned that there was one spotted owl that was 
killed, and that is the only one that has been brought forth in 
this area?
    Mr. Vargas. That has been captured and killed, yes.
    Mrs. Chenoweth. Have there been any sightings, or I guess 
they hoot from one another, and so there have been hearings and 
not sightings; is that right?
    Mr. Vargas. That is correct.
    Mrs. Chenoweth. Have there been any sightings at all?
    Mr. Vargas. Not that I am aware of.
    One of the things that really bothers me about these 
endangered species, the hysteria that surrounds it, is that 
sometime back when we were logging the Villa Grande timber 
sale, there was a big to-do about the peregrine falcon being an 
endangered species, and if we see one, we are going to shut 
down your timber sale and so forth. It was very funny because 
about a week after that, I read a newspaper where there was a 
peregrine falcon nesting on the 10th floor in Kansas City, and 
now we are talking about--I guess maybe they could move out of 
Kansas City and make room for a habitat for peregrine falcons 
there, but those are the kinds of things that just don't make 
sense to us around here.
    Mrs. Chenoweth. It doesn't.
    In your written testimony you talk about the assault on the 
customs and cultures and the traditions of this area by the 
extreme environmental groups. You made a comment in your oral 
statement that the extremists are giving environmental groups a 
bad name.
    Mr. Vargas. Well, I didn't finish that part of my 
testimony. I was trying to get to something that happened. 
There have been a number of what I consider to be true 
environmentalists, people like ourselves that have people in 
the equation. Some of these people have stepped forward and 
been very severely attacked by these fringe groups. One of the 
environmental folks that I wanted to mention, he is Professor 
Wilkerson from the Colorado School of Law, and he wrote a paper 
taking a stand demanding that Hispanic people who are forest-
dependent have more access, so forests should be made to their 
benefit. He was immediately attacked nationwide by 
environmental centers and the National Wildlife Federation, and 
they tried to get him kicked off of that Board.
    So when I read that article about McCarthyism, they were 
leaking the confidential forest documents to the 
environmentalists, it was very strange to me because I have 
seen the attacks they have launched against their own people 
simply because they don't agree with them.
    There is no democracy in environment, in the extreme 
environmental community, none at all. You cannot speak up, or 
you will be maligned. There is a lady in here who is also a 
nationally known environmentalist, and if she wants to speak, 
she can do so herself, but they sent e-mail all across the 
country accusing her of having a financial interest in our 
logging company here in Villacitos. It is just a whole lot of 
lies and vicious attacks that are engaged in by these groups.
    Mrs. Chenoweth. Do those environmentalists have a long 
history of living and working in this area?
    Mr. Vargas. Some do. Some do. As a matter of fact, some of 
the most rabid environmentalists that are now raised in Santa 
Fe actually lived in our villages here in northern New Mexico.
    Mrs. Chenoweth. How do they differ from the indigenous 
people that you have discussed in your oral and written 
testimony?
    Mr. Vargas. I think that most of them consider themselves 
to be superior to the locals. I believe that one of the reasons 
that they don't want to see large trees cut is because they 
consider them to be giants in the forest, and since they 
consider themselves to be giants among men, they want to 
preserve them.
    That is kind of what I see coming from these people. They 
are very elitist. They look down on the locals. They think they 
are ignorant and dumb, and that is kind of the attitude most of 
these people have toward the locals.
    Mrs. Chenoweth. Do you sense they are very tolerant with 
the people?
    Mr. Vargas. I don't sense any tolerance whatsoever. In 
fact, when one of these environmentalists from the Forest 
Guardians was asked how he dealt with the Endangered Species 
Act and in the context of the cultural diversity in northern 
New Mexico, his response was that biocentrism and ecology have 
a higher level than any culture or any custom.
    Mrs. Chenoweth. Biocentricity of the ecology, can you 
define that?
    Mr. Vargas. No, I can't.
    Mrs. Chenoweth. Thank you, Ike. I really appreciate your 
contribution.
    Max Cordova, your testimony pleads for people to be self-
reliant. With the national forest and tribal lands producing 
more timber, what type of economic opportunities would be 
created to make citizens more self-reliant, and also could you 
state for the record the average annual income of these 
citizens in this county?
    Mr. Cordova. When I look at the Forest Service, I look at 
the national forest, I look at opportunities to create economic 
development for our communities through all of the resources 
that the Forest Service has.
    One of the most interesting problems that I see is that in 
Santa Fe, for example, they use more fuel wood for aesthetic 
value than we do to heat our homes, especially in Santa Fe 
where they have natural gas and electricity and a lot of those 
things.
    Mrs. Chenoweth. Aesthetic values like?
    Mr. Cordova. Keep a little fireplace to create the 
atmosphere. Not necessary for----
    Mrs. Chenoweth. Ambiance.
    Mr. Cordova. Yes. I do people's income taxes, and I am 
always surprised at how people survive. Our income, the income 
of most of the people that I do taxes for, is under $12,000.
    Mrs. Chenoweth. $12,000?
    Mr. Cordova. There are some people living on incomes much 
lower than that, around $7,000. So as you can see, they can't 
afford butane, for example. The Federal Government has a 
program called Energy Assistance, and the people usually get a 
little bit of help in paying their electric bills or being able 
to buy a load of wood or stuff like that.
    When we were engaged with environmental, one of the things 
they said was we needed better stoves, more weather ventilation 
and solar. It is fine and dandy, because where is it going to 
come from? I feel that we need to engage with the Federal 
Government and State government and the Forest Service in doing 
those things like putting more insulation in our homes.
    Some of our stoves are pretty old, maybe 20 to 40 years 
old, but our idea is don't tell us what the problem is, help us 
find a solution to it. It doesn't take anybody to point out 
problems. It takes special people to find solutions. That is 
the only thing we ask. We ask to help us find solutions, Forest 
Service, environment groups and communities also.
    Mrs. Chenoweth. Solve their own problems rather than the 
problems created for them.
    Mr. Cordova. Oh, yes.
    Mrs. Chenoweth. Thank you very much, Mr. Cordova.
    Mr. Chacon, besides Mexican spotted owl, what other 
endangered species are causing conflicts in rural communities?
    Mr. Chacon. The major concern we have is the willow 
flycatcher. There is concern, and it is about to impact several 
different allotments where willow flycatchers' habitat has been 
discovered and are listed. And essentially what is liable to 
happen is the removal of livestock from some of those areas. 
There has been some allotments in Taos County to the--just to 
the nearest neighbor here in Rio Arriba County, that will be 
directly affected by this, so resolution to the problem has not 
been discovered yet as to what will happen, but certainly if 
they are restricted from these areas here, certainly that will 
impact those, and the cattle are going to have to be removed.
    Mrs. Chenoweth. One of you, either Mr. Cordova or you, 
Gerald, have done some studying on the history of this area and 
history of law relating to this area where the Congress has 
dealt very specifically in the past with your rights, the 
rights that came into being even before New Mexico became a 
State. Do you have a pencil? I want you to note a Supreme Court 
decision entitled Sunol v. Hepburn. It was decided by the U.S. 
Supreme Court in 1850.
    If you take that case and then start working up, it is a 
fascinating history, and there is so much strength that you do 
have in the law. The only problem is these people are being 
harassed enormously, and the resources are drying up, and they 
cannot compete with the Federal Government, who has a never-
ending resource of litigation and Federal lawyers they like to 
keep employed.
    But I understand that. I understand your rights to 
petition. There are more and more Congressmen like your 
Congressman, Bill Redmond, who understand that. We are working 
together, and we are working very, very hard to be able to 
right the wrongs that have been made not by the law, not even 
necessarily by the Congress, but by assertion and lack of 
regard for your private property rights, rights that are 
antecedent.
    So that is why that Supreme Court decision is so very 
interesting, and so work with that as a linchpin both up and 
back.
    Rob Luce, it is so good to see you. It is so good to see 
another Idahoan. You know, it always amazes me that--what is 
absolutely clear and accurate to anyone, the difference between 
a well-managed forest and a forest that isn't managed at all, 
and how much better the forest health is in a well-managed 
forest, how people work better in well-managed forests than 
that forest that was not cared for.
    Why do we keep seeing such a disconnect? In your 
experience, Rob, in working with the environmental community in 
this area, why do you think we see such a disconnect in reason 
and logic, what sight tells us?
    Mr. Luce. Well, for me it is difficult to see, because the 
contrast is so striking. What I have come up against--and I can 
use an example in southern Colorado to perhaps at least 
illustrate what is happening, but may not answer the question. 
We have a major private logging operation that is occurring 
near San Luis. Regularly that particular operation gets visited 
by a number of different environmental groups. Sometimes the 
encounters are not much more than sign-holding and name-
calling, and other times it has escalated.
    My feeling is that the people that are protesting and that 
have difficulty with that particular sale are not informed as 
to what is going on, and that they are under the impression 
from somewhere that clear-cutting is occurring, that mudslides 
and water degradation follow, and that logging needs to be 
stopped there.
    We have attempted to use photographs. We have made 
offerings to take certain groups up there on the mountain to 
see what is going on. But it appears to me to be a situation 
where photographs and the actual physical site doesn't seem to 
matter. The fringe groups are ignoring science and won't even 
listen to their own experts that this is good logging and good 
forest practices. Apparently they are bent on the idea that 
they would rather see brown dirt after brown dirt and mudslide 
after mudslide.
    Mrs. Chenoweth. Rob, you mentioned that the Apache 
Reservation had an annual harvest of 450 to 100 million board 
feet, estimates of standing timber voluntarily of 100 billion 
board feet. How can this be in such an arid area as this?
    Mr. Luce. It is being managed well, to essentially log for 
30 years and end up with what you started with.
    Mrs. Chenoweth. So they are logging according to what we 
are supposed to be logging, and the 90 percent of mortality, 
correct?
    Mr. Luce. Correct.
    Mrs. Chenoweth. And brings the sustained yield to what we 
see evidenced there, correct?
    Mr. Luce. That is also occurring in Mescalero there.
    Mrs. Chenoweth. Good work.
    Well, gentlemen, I have learned a lot from you, and I know 
I've kept you a long time, but this is important, and we will 
be able to analyze it.
    I would like to turn the mike back over to Congressman 
Redmond.
    Mr. Redmond. One of the things that I couldn't help but 
notice sitting in this historic building is that we have 
representatives from all three racial and ethnic groups working 
in harmony, and, Mayor, when we unveiled the stamp here 4 or 5 
months ago, this is what we prayed for, a stamp of bringing all 
three cultures to address the issues we all face together. So I 
want to thank you all.
    [Applause.]
    Mrs. Chenoweth. Gentlemen, thank you very much for your 
contributions.
    I want to call to the witness table Jake Vigil, Tres 
Piedras Carson National Forest District of El Rito, New Mexico; 
John Horning, Executive Director, Forest Guardians, from Santa 
Fe, New Mexico; Kieran Suckling, Executive Director for the 
Southwest Center for Biological Diversity, Arizona; Caren 
Cowan, Executive Secretary, New Mexico Cattle Growers, 
Albuquerque, New Mexico; Gabe Estrada, rancher from Las Vegas, 
New Mexico; Palemon Martinez, Secretary, Northern New Mexico 
Stockmen's Association, from Valdez, New Mexico.
    Is Kieran Suckling here?
    So with that, if the witnesses will please stand and raise 
your right hands to be sworn.
    [Witnesses sworn.]
    Mrs. Chenoweth. Mr. Jake Vigil, I understand you are going 
to give your testimony in Spanish?
    Mr. Vigil. It is not that I don't know English, but I would 
like to speak in Spanish, if you allow me to give it. It will 
be interpreted.

STATEMENT OF JAKE M. VIGIL, TRES PIEDRAS CARSON NATIONAL FOREST 
                 DISTRICT, EL RITO, NEW MEXICO

    [Testimony was given in Spanish; English translation 
follows.]
    Mr. Vigil. Good afternoon. My name is Jake M. Vigil. I am 
representing the Tio Gordito Cattle Association. I want to 
thank the Subcommittee on Forests and Forest Health and 
Chairperson Chenoweth for allowing me the opportunity to 
testify to this oversight hearing. I would also like to thank 
Congressman Bill Redmond for bringing this important hearing to 
Espanola, New Mexico. It is my hope some good will come from my 
testimony.
    Make no mistake, I love the forest dearly. I do not want to 
see it harmed in any way. At the same time, I do not want to 
see the destruction of our culture and customs.
    Please forgive me, I am not an educated man. All of my life 
has been spent on making a living in the Carson National Forest 
in the Tres Piedras District raising sheep and cattle with my 
father.
    It is important you understand that I know the forest and I 
know it very well. My family, the Vigils, settled Medanales in 
the early 1600's and tamed the tierra cimarrone, or wild lands. 
As a young boy my father would take me to the high sierras for 
summer to herd sheep. Those were the happiest days of my life. 
Sadly, over the years I have noticed a decline in the health of 
the forest, not because of sheep and cattle--years ago we 
grazed more livestock than they do today. But because of 
inappropriate Forest Service policies and the implementation of 
so-called environmental reforms, my beloved land is suffering.
    We have bent over backward to work with the Forest Service. 
This year we have already given up 23 days of grazing time on 
our permits due to what was referred to as production decline. 
We may possibly lose up to another 30 to 60 days at the end of 
the season due to a policy called 40-60 utilization. This is a 
policy, derived from a formula dreamed up by the Forest Service 
and environmentalists behind closed doors, that dictates 
utilization of 40 percent of the forage, and 60 percent is left 
behind. Because of this ridiculous policy, 42 families will be 
affected, and 3,000 head of cattle will be forcibly removed 
from the Carson National Forest.
    What I find interesting is that years ago we ran more 
livestock, and the forest looked better than it does today. I 
believe it is due to the fact that Forest Service has invested 
so much money fighting the environmentalists in court, and so 
little is left for range improvements. I can hardly blame the 
Forest Service for making deals with environmentalists. It is 
obviously cheaper to strike a deal than it is to fight someone 
in court. Unfortunately, the cheap way out is not good for 
forest health, and it will ultimately mean the end of the 
Hispano culture.
    With me today are five pictures I want you to see. One will 
detail a grazed area, and the other is a nongrazed area. All of 
the pictures are taken from my ranch: Number 1 is a boundary 
fence between my Forest Service permit and private land. The 
one on the left side has never been grazed, and the right has 
had livestock on it since 1958. You will notice the right has 
many more different plants, while the left is nothing but 
sagebrush.
    Number 2 and 3 are areas adjacent to each other. You will 
notice the abundant vegetation in photograph 2, while the space 
represented in photograph 3 could never support any livestock 
or wildlife or livestock whatsoever.
    Picture number 4 demonstrates the vegetation left behind 
when we left this pasture in July 28, 1998. Number 5 is an area 
cattle and wildlife never go because of the canopy under which 
nothing grows.
    I am always amazed that never once has an environmentalist 
consulted me or my neighbors, and certainly never has one asked 
to see our ranches. I might add, none of us has ever been 
invited to one of their meetings.
    Environmentalists have the financial resources to try and 
make the forests into some idea of what they think the forests 
should look like. They do not realize grazing and logging are 
good for the land. As far as I am concerned, radical 
environmental groups are racist and are out to rid the forests 
of these Hispano by destroying our livelihood. The Forest 
Service, with approval from environ-

mental groups, spends millions of dollars each year to recover 
artifacts and restore ruins. I guess a culture has to be dead 
for 1,000 years before we try to save it.
    Again, thank you for your invitation. I hope I have done 
some good.
    [Applause.]
    Mrs. Chenoweth. Mr. Vigil, I do want to say please forgive 
me for not pronouncing your name properly. Being an English 
person that I am and Welsh, I just speak English and understand 
it better. But I do understand your heart, and that testimony 
and those pictures just spoke volumes to me. Thank you very 
much.
    [The prepared statement of Mr. Vigil may be found at end of 
hearing.]
    Mrs. Chenoweth. Mr. Horning, before you testify, I want to 
thank the Forest Guardians for participating in this hearing 
rather than boycotting it. I really do appreciate you and have 
a great deal of respect for the fact that you would come and 
give your testimony. It indicates to me that you do have a 
desire to try to work things out, and so I look forward to your 
testimony, Mr. Horning.

     STATEMENT OF JOHN HORNING, EXECUTIVE DIRECTOR, FOREST 
                GUARDIANS, SANTA FE, NEW MEXICO

    Mr. Horning. Thank you, Chairwoman Chenoweth, 
Representative Redmond, good afternoon. My name is John 
Horning. I am a resident of Santa Fe, New Mexico, and I direct 
Forest Guardians Watershed Protection Program.
    I have lived in Santa Fe and worked for Forest Guardians 
for 4 years. Like many people all over the Western United 
States, I am not originally from the West, I am not originally 
from New Mexico. I moved here from somewhere else. But 
regardless of where I am from, I am a deedholder, just like all 
of us, to the public land of New Mexico.
    Although much of New Mexico is arid, we are still blessed 
with hundreds of miles of backwood streams and rivers. The Rio 
Guadalupe, the Rio Chalupas, these are some of the streams of 
northern New Mexico. I have walked and seen literally hundreds 
of river miles all over the State.
    These streams and the forests that grow along them, 
riparian habitat, although they represent only about 1 percent 
of the land, are critical for all of us. The habitat grazing 
plan severely damaged these lands, degraded watersheds and 
rivers and clean water, and harmed fish and wildlife in the 
underlying areas for the willow flycatcher, the yellow cuckoo 
bird, the Rio Grande cutthroat trout, the lesser prairie 
chicken, the sage grouse. The list could go on and on. These 
are the animals that are on the brink of extinction primarily 
as a result of years and years of livestock grazing.
    I don't want to dwell on this fact, but I will share one 
quote that is significant not because it highlights this long-
standing problem, but because it highlights another more 
serious problem that I will address momentarily. This is from a 
report in the early 1990's: There are still millions of acres 
of land and thousands of miles of stream courses that remain in 
an unsatisfactory condition. Extreme site areas, instead of 
being lush grasses in the hot, dry desert, hot, dry climate, 
are void of vegetation and frequently as dry as the upbrink.
    This quote is from a report that never saw the light of 
day, suppressed because the Forest Service and/or the Livestock 
Industry conspired to hide the bitter and ugly truth in it.
    For those of you who may wonder why Forest Guardians has 
resorted and continues to resort to litigation to address 
livestock grazing on public lands, the answer has to do with 
Federal land management and that they continually ignore their 
responsibility to manage the land with the interest of all of 
the American public in mind. The answer to why we resort to 
litigation is also in part because of Congressman Don Young's 
well-publicized recent letter to Forest Service officials and 
because of hearings like today. Both of these events 
communicate to the ranching community in particular that it can 
exist outside and above the law.
    These events conspire to put the Western wildstock even 
more out of touch with the boundaries of the American public 
who want wildlife and clean water to be the highest priority of 
public lands. Hearings like these do nothing but communicate to 
the livestock industry the inevitable fact that it must change 
and accept that it will have a smaller piece and sometimes no 
piece of the pie on public lands. Instead they will search to 
reinforce the livestock industry pattern of denial that grazing 
creates environment and ecological problems.
    Although the ranchers all over the West love to blame the 
environmental community for their financial woes, the bottom 
line is the moneys have always been small in the ranching 
business, even with a long list of Federal subsidies.
    The real forces of changes are declining beef prices, 
declining consumer demand for beef and a real estate market 
that makes it questionable to raise livestock. As a result of 
these realities primarily, and not because of environmental 
organizations, many permittees are looking for ways to get out 
of the business.
    I know that you may have many questions about recent 
litigation and its effects on permittees and how that came 
about. I will reserve any testimony about those matters and 
other matters for questions. I am definitely open to any sort 
of questions that anyone might have. Thank you for the 
opportunity to appear before you today.
    Mrs. Chenoweth. Thank you, Mr. Horning.
    [The prepared statement of Mr. Horning may be found at end 
of hearing.]
    Mrs. Chenoweth. The Chair recognizes Caren Cowan.

   STATEMENT OF CAREN COWAN, EXECUTIVE SECRETARY, NEW MEXICO 
            CATTLE GROWERS, ALBUQUERQUE, NEW MEXICO

    Ms. Cowan. Thank you, Chairwoman Chenoweth. We appreciate 
the opportunity, and we appreciate you taking the time out of 
your schedule to be here.
    My name is Caren Cowan. I am the executive secretary of New 
Mexico Cattle Growers Association. I was asked here to address 
the settlement agreement and litigation that Mr. Horning just 
referred to. I feel I am in a unique position to discuss that 
because I was the contact between the permittees and our 
attorneys, and I was involved intimately in what went on.
    The Forest Service has said a lot of things about how the 
Livestock Growers Association chose not to enter into 
negotiations. That is a flat lie, and they can't even get their 
story straight. In this Washington Times article from 
yesterday, and I would appreciate it if the whole article was 
inserted into the record, Dave Stewart, the Forest Service's 
Acting Regional Director for Rangeland Management, said that 
``as for excluding the ranchers who held the grazing permits, 
it wasn't necessary to include them because they weren't 
directly involved in the lawsuit.'' So he here admitted that we 
weren't included in what went on. So for them to say we refused 
to participate, as I say, is an outright lie, and we are amazed 
that a Federal agency would take this kind of attack.
    As far as putting people off the land, which Mr. Horning 
just referred to, I brought a couple of letters, and I made 
copies, if anybody's interested, from permittees who are being 
put off the land. The Forest Service persists in telling the 
media and public they are not putting people off the land, they 
are doing it voluntarily. Sure, they are doing it voluntarily, 
because they have been cut off water, and we are not cruel and 
inhumane people. If we can't provide for our livestock, if we 
can't provide the food and water they need, we are going to do 
something else. So when you take our water away and then say 
that we voluntarily moved, I think we are talking about another 
lie.
    I had one gentlemen call me late yesterday afternoon and 
say, I can't come, but would you ask them what I am supposed to 
do with 250 cattle that I have no place to go with come 
September 15? We can't warehouse our livestock. We can't stack 
them up for 30 or 40 days until we can find a place for them.
    In addition, the way that the Forest Service is doing a lot 
of these things, like Mr. Vigil referred to, they are 
circumventing the people's rights. Instead of giving documents 
that are appealable toward telling people, directing them to do 
what the Forest Service deems necessary, they are going out and 
giving them letters and asking them to voluntarily do things. 
The permittees are unaware that if they voluntarily do those 
things, they have given up their rights. They have no right to 
appeal, and I feel it offensive that our Federal Government is 
persisting in this kind of behavior.
    You asked a while ago where the disconnect was between the 
realities of the folks that we see and the land that we live on 
and the radical environmentalists. The disconnect is what their 
agenda is. The agenda has nothing to do with what is going on. 
I guess statements that have been in the press lately clearly 
state that Mr. Charion suggesting that one endangered species 
was worth a thousand ranchers.
    John Talberth from the Forest Guardians said on KAFE Radio 
about a month ago that cattle are exotic pets and are nothing 
of value to the State of New Mexico.
    This morning I was in a forest health roundtable, and a 
Sierra Club member said he would rather see forests burn than 
logging and cattle grazing.
    So let's see what the real agenda is, and we can compare it 
to overall agenda as like the black helicopters in the news 
this morning.
    What is the agenda? I have a document here that states that 
in mid-1997, the U.S. Forest Service presented to the Wildland 
Project a conceptual proposal to reduce livestock and land 
conflicts. What is a government agency doing submitting 
anything to the Wildland Project? Where has Congress or anyone 
condoned the Wildland Project agenda between any of these items 
or regulations that our Congress has never dealt with? This is 
something else we find offensive.
    We look at the funding that is going on here. We have been 
funding our litigation, and it has cost of tens of thousands of 
dollars to have the Director of Range tell us that we weren't 
included to participate in these hearings and litigation. We 
are raising that money through bake sales, dances, and ropings. 
The computer doesn't even know what a roping is when you 
spellcheck through. But we found that the Pew Foundation has 
dumped $675 million into the Southwest in the last 3 years for 
litigation. We would like to know how much the Forest Guardians 
and the Southwest Center will take after the settlement 
agreement was reached in Tucson in the back room.
    In conclusion, we keep hearing that ranchers haven't 
changed. We had a meeting 2 months ago. Virtually the first 
words out of her mouth were that you cowboys can't do things 
the way you did 80 years ago. None of us do things the way we 
used to 80 years ago. The Forest Service doesn't, and we don't.
    I would submit to you that I am living proof that the 
cowboys have changed. Eighty years ago, 50 years ago, 20 years 
ago, 5 years ago there wouldn't have been somebody in a skirt 
telling you about this today. Thank you.
    [Applause.]
    [The prepared statement of Ms. Cowan may be found at end of 
hearing.]
    Ms. Chenoweth. The Chair recognizes Gabe Estrada.

   STATEMENT OF GABE ESTRADA, RANCHER, LAS VEGAS, NEW MEXICO

    Mr. Estrada. I don't think she left anything for me to say.
    Chairwoman Chenoweth, Congressman Redmond, we deeply thank 
you for bringing Washington to New Mexico, northern New Mexico 
specifically. I have been to Washington and have addressed 
committees trying to tell our story of what happens on the 
ground. And here we are really blessed today, and I am sure the 
people behind us are happy to see that Washington came to us, 
we didn't have to go to Washington. And we thank you both for 
setting up the meeting and for being here and bearing with us 
on the problems that face our northern New Mexico culture and 
heritage, our born people.
    [Applause.]
    Mr. Estrada. One of the subjects that was mentioned was our 
private property rights. I have to take my hat off to Mr. 
Redmond. He replaced the person that went to Washington with a 
perfect record that was a goose egg. Ray felt we didn't need 
support. Yet as was mentioned before in the prior panel, most 
or over 20 some percent of our grant lands are in Carson and 
Santa Fe National Forests, and our people have rights to those 
lands, not a privilege. We don't normally have rights to the 
private land, but we have rights to the public land. We need to 
have those rights preserved because that is what our people 
stand for.
    The treaty of Guadalupe Hidalgo has been abused. It is 
probably sitting collecting dust under piles of other 
documents. We cannot understand why the Clean Water Act, the 
Endangered Species Act, the Clean Air Act so precede the rights 
of New Mexico, so precede the rights of Americans on these 
issues that we have a right to.
    These are Johnny-come-lately rights. We have been here for 
400 years. Some of us have farmed that land, the same piece of 
land, for all of these years and are still producing a crop. We 
used to be forest. Or I guess our responsibility was to support 
50 people as farmers because the towns and communities were 
very small. Today, according to our census people, that figure 
has two more zeros in back of it.
    We are less than 2 percent of the population, and we still 
have the best supply of food, the cheapest supply of food. The 
environmentalists have done nothing to let us know that we are 
producing good quality food on less land and that there is a 
lot of spirits that are doing a lot of that work. They not only 
put their working gloves on, but we had to take our chaps off 
and go to work, and we are still doing a great job. And these 
people behind me are proven fact and shining examples that all 
of those bald heads are raising kids and grandkids and great-
grandkids, and we want that culture and heritage to stand 
forever.
    [Applause.]
    The northern New Mexico policy was made back in 1969, 
stating that because of the Carson and the Santa Fe National 
Forest our lands were taken and fenced in, you might say, into 
the forest land. So they gave supposedly special privileges to 
the northern New Mexico people. It took 23 years for that 
document to surface, and I am the one that found it by mistake 
sitting in a file in the regional office that nobody had ever 
told us about.
    I have been a permittee for over 23 years when I found this 
document and knew nothing about it. People made this treaty, 
just like the Guadalupe Hidalgo, and somebody has made a very 
good effort to keep it hidden and keep our rights. We have a 
right to this. They aren't privileges.
    People in the Forest Service have told us that it has been 
a privilege for them to work for us, and people, I want you to 
know that any public employee belongs to us. We don't belong to 
them. This is our right and they work for us, and I think they 
need to hear that over and over again so they will work for us.
    We are talking about riparian areas. The environmental 
community has griped, complained, filed lawsuits. Why don't 
they take care of the whole body. We need to take care of our 
water first and then take care of our riparian areas.
    We have so many trees per acre that we need to do away 
with. We can utilize them, we can turn them into cash, we can 
turn them into houses, we can turn them into paper, do what is 
needed to be done with them, but we need to do it.
    The riparian areas that we are talking about that carry the 
streams and flows are being reduced. This is the truth, and I 
am glad somebody brought it to our attention, but it isn't the 
cattle that have brought those riparian areas to a trickle. It 
is the number of excessive trees because of Smoky the Bear 
which suppressed so many fires that we cannot--we do not have 
the moisture to grow 1,000 to 1,500 trees per acre.
    There was a study made on pine and juniper down here by 
Mountainair that our rainfall could only sustain, mind you, 
Congresswoman, 200 trees per acre. A pinon, which is an 
evergreen, we have over 500 per acre. We have over 1500 trees 
per acre and the canopy cover in the forest that is killing 
everything.
    I made a comment to Dan Glickman, which I made is 16 years 
ago, that the trees were killing our forests. We are just 
having too many trees, suppressing too many fires. Today it is 
reality. I think you heard from the gentleman sitting in my 
chair. You heard from the gentleman from the Mescalero Apache 
Reservation. We have to think and we have to cultivate the 
forests. I don't care if it is wilderness outside of 
wilderness, private or whatever. They cannot take care of 
themselves because of the disease, decay, overcrowding, lack of 
moisture. One glass of water wouldn't fill the stomachs of 
everyone in this room, yet that is all the water we have for 
trees and we need to take care of it.
    The other thing that I think government is the steward of 
this land. We are the guardians of the land. But we should come 
first. I don't know of the hundreds of endangered species that 
have been brought up here today. I don't know how to preserve 
every bird. Where in the hell do we stop?
    [Applause.]
    I just wanted to close on this one. We have some great 
programs, the Maintenance Program that was a long range program 
to help district water for wildlife, for species, for 
livestock, for human beings. That was killed by Congress. We 
also had the SCS Program and that was a separate project 
program. You could apply to build the preliminary for fencing, 
you could apply for pinon, juniper. It was a very effective 
program.
    We need those various programs back, and all of this was 
done to put the world--we still treat the land the same, we 
still do the practices the same. All we need is around five 
feet more of paperwork to do. Thank you. We really appreciate 
you being here.
    [The prepared statement of Mr. Estrada may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you.
    The Chair recognizes Palemon Martinez.

 STATEMENT OF PALEMON MARTINEZ, SECRETARY, NORTHERN NEW MEXICO 
                     STOCKMEN'S ASSOCIATION

    Chairwoman Chenoweth and Congressman Redmond, your 
Subcommittee on Forests and Forest Health in Espanola and 
northern New Mexico is greatly appreciated. We are an area of 
limited financial resources and this approach gives us an 
opportunity to present our viewpoints. We also appreciate the 
sensitivity of Congressman Bill Redmond to arrange this 
hearing.
    I am the Secretary-Treasurer of the Northern New Mexico 
Stockmen's Association and a grazing permittee on two 
allotments in north central New Mexico. My family has been 
involved in farming and ranching since Spanish settlement in 
this area and have dealt with agricultural and land management 
since their inception. I have been a part of this all my life.
    I would first like to point out an issue along with the 
research document that can give you an excellent overview of 
northern New Mexico and its historical and inherent problems. 
Our Northern New Mexico Stockmen's Association, feeling the 
various Federal initiatives, policies and regulations along 
with the entry of the legally inclined and well-funded 
environmental organizations, was prompted to consider, ``Do we 
have any rights on the use of public land, rights we always 
felt were inherent to our area and culture?'' We had to find 
out. To do so, we contracted with Dr. Michael C. Meyer, Ph.D, a 
noted University of Arizona historian in Southwestern and 
Mexican history.
    This year Dr. Meyer has completed his research entitled, 
``The Contemporary Significance of the Treaty of Guadalupe 
Hidalgo to Land Use Issues in northern New Mexico.'' I have 
copies of which I will make part of the record for you.
    This is a revealing legal and historical perspective of the 
common land uses under Spain and Mexican law and subsequently 
under United States jurisdiction. We are providing a copy of 
the research publication for the record.
    I would like to make the following observations:

    The text is informative, interesting and relevant to 
discussion of northern New Mexico land use issues.
    The Treaty of Guadalupe Hidalgo of 1848 raises some 
fundamental issues of property protected for Mexican citizens 
and their successors in interest in New Mexico as well as the 
other treaty states.
    If treaties, as provided by the U.S. Constitution, Article 
VI, Section 2, are to be honored as if the treaties were the 
Constitution itself, how then does the Treaty of Guadalupe 
Hidalgo apply to the protection of property rights concerning 
our contemporary land use issues? Can more recent Federal laws 
such as Endangered Species Act, Clean Water Act and others 
supersede the treaty protections, or are there other avenues? 
How does Article V apply to property rights and takings issues 
on either a historical or on current situations? Are these 
treaty issues similar to those of Native Americans as protected 
and researched by the U.S. Indian Claims Commission? We were 
all considered Mexican citizens at the time of the signing of 
Treaty of Guadalupe Hidalgo. Do we merit the same 
considerations?
    To not belabor the research report, I would last call your 
attention to the section on ``Conclusions and 
Recommendations,'' pages 82-90. Although Congressman Redmond's 
Land Grant bill addresses some of these issues, we recommend 
Congressional review of the above cited recommendations as 
relate to all the natural resources, land and water, along with 
the significance to issues related to today's hearing.
    We would like to call the Subcommittee's attention to 
certain Federal Land Management Agency policies:

    The U.S. Forest Service, Southwest Region, adopted a 
northern New Mexico policy in 1969. This was done because of 
our situation and uniqueness. We felt this was a positive 
action and we recently recommended this policy continuation to 
Southwest Regional Forester Towns, and was seemingly well 
received. We understand this policy was also recommended by the 
Carson and Santa Fe National Forests. We also heard that 
although recommended, the legal reviews by higher level legal 
staff rejected the policy and that policy could not be 
different than elsewhere. What if we called it northern New 
Mexico philosophy? The key is the approach and sensitivity to 
custom and culture, as the case may be.
    Grazing Advisory Committees were part of the operational 
norm and were abolished. Every other institution operates under 
similar fashion. We recommend reinstitution of these committees 
to improve resource management. A worse evil is moving all 
resource management to the courts. We believe that is the wrong 
approach to the problems as well as to public land users. The 
exception may be those direct beneficiaries who are on the 
litigant payroll.
    Range management improvements and conservation supported by 
Congress and the USFS in the 1950's, 1960's and 1970's. This 
was a needed effort with excellent results. We need those 
programs reinstated. We believe there would be greater public 
support for Federal fund expenditures for these programs than 
for the legal arena.
    Thank you for the opportunity to present this testimony 
before your Subcommittee.
    [The prepared statement of Mr. Martinez may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Martinez.
    The Chair yields to Mr. Redmond for his questions.
    Mr. Redmond. Thank you, Mr. Chairman.
    My first question is to Mr. Estrada. You said you found a 
document that would shed light on what--could you identify that 
document for us, please?
    Mr. Estrada. It is a northern New Mexico policy for the 
Carson and Santa Fe National Forest. It should be on the top 
handout in every Forest Service office in the country up here 
in the North, but they kept it pretty well hidden.
    Mr. Redmond. Can you give me the date on that document?
    Mr. Estrada. 1969.
    Mr. Redmond. I would like to ask Mr. Vigil, how has the 40-
60 utilization policy affected your operation and your family?
    Mr. Vigil. It has affected us greatly. We were told we 
might have to get out the first of September, and my living 
room is not big enough to put them in there. If the Forest 
Service would like to see the prices of cows right now. If I 
get the same amount of cows next year, the replacement would be 
extra dollars. So I don't have to take a pay loss. Do you get 
what I am saying?
    Mr. Redmond. What was the rationale for further limiting 
the number of days?
    Mr. Vigil. Well, the grass, as I showed you on that 
picture, Picture 3, grass that was on that specific unit when 
they made us move to our next unit. The next unit had 60 days 
and now they said they are going to give us 30 days, so that 
would put us the first of September. I haven't heard anything 
in writing yet, but I probably will soon.
    Mr. Redmond. I would like to see a show of hands of people 
who are in the same situation as Mr. Vigil.
    [Audience raises hands.]
    Mr. Redmond. About a dozen or so. Of those of you who 
raised your hands, would you write and document for us the 
original agreement and then how many days you have lost, and 
please forward that to my office? In a moment my staff people 
will pass a card to you and I would like to submit that in the 
record.
    Mr. Vigil. This will have to be done soon now because it is 
coming up here, it is a week or two away from it and what to 
do? If we go to court, will they kick us out next year? We are 
between a rock and a hard place.
    Mr. Redmond. The Chairwoman and I will meet following this 
meeting and we will discuss what the options are.
    Mr. Vigil. Thank you.
    Ms. Cowan. That is what they are--they have not been given 
a formal decision document so they have nothing to appeal, they 
have no way to protect their rights. So we have got to get the 
formal decision document and not find them in--wait for that 
documentation and the process to work, because if these guys do 
what the Forest Service is telling them to do, they have lost 
their rights.
    Mr. Redmond. So this would be an example of circumventing 
the rights of the permittees, as you mentioned earlier?
    Ms. Cowan. Absolutely.
    Mr. Redmond. Mr. Horning, could you give an example--I know 
there are some in regard to the livestock being outside the law 
in the use of Federal and U.S. Forest Service land?
    Mr. Horning. Yes, trespass, grazing outside the terms and 
conditions of permits. It happens all the time. Enclosures, 
areas that were built to protect streams, wetland springs, 
allowing cows or cows ending up in areas that are intended to 
be excluded from grazing. In my experience, violations of the 
terms and conditions of grazing permits are fairly routine.
    Mr. Redmond. Well, one of the things I wanted to clarify, 
and if you could--if you are unable to, maybe at a future time 
could you submit documentation from Forest Guardians, but in 
your tend of public lands, there is approximately a million and 
a half acres in New Mexico, mostly northern New Mexico, that 
were Hispanic land grants and honored by the New Mexico 
government and also by the Treaty of Guadalupe Hidalgo.
    In defining community use, the Spanish law was very clear 
that you could use the term, the deed holders of the land, as 
being the American public, from sea to shining sea. But in 
Spanish law, the community land was very clearly defined to be 
only those original grantee families.
    So, for instance, you could be a member and share in the 
public use of the Soleto land grant, but if you lived in 
Soleto, you had no rights in the Anton Chico land grant. So in 
one sense it was community, but it was community only to those 
original families.
    And, of course, this land is now in the hands of the 
Federal Government. Does the Forest Guardians recognize the 
distinction be-

tween, as you said, deed holder for the public, that in this 
case the public is limited only to those original families?
    Mr. Horning. Well, until I see something to the contrary, 
it is our feeling that the public lands of northern New Mexico, 
be they in the Carson or Santa Fe National Forests, are no 
different from any public lands in the rest of the State. I 
have seen nothing to contradict that. The dots on the map show 
the land in northern New Mexico is the same color as on other 
parts of the State. You know, they are national forests, so 
until I see something that would make me believe that there is 
a contradiction there, they are public land and that is how we 
will continue to view them.
    Mr. Redmond. Are you speaking on behalf of Forest Guardians 
or on behalf of yourself?
    Mr. Horning. We have no formal policy that is at least 
written up. At that point I am speaking for myself.
    Mr. Redmond. OK, that is all the questions I have.
    Mrs. Chenoweth. The colors on the map? That is the sum 
total of your understanding of this law? Come on, Mr. Horning.
    [Applause.]
    The colors on the map? You are a bright man, obviously you 
are. Don't insult this Committee and this hearing. What is your 
sum understanding of land grant issues?
    Mr. Horning. What I was trying to convey is that it is a 
fairly simple understanding. Public lands in northern New 
Mexico, in my mind, are no different than the public lands of 
other parts of the Southwest. There is a Federal Land 
Management Agency that has been given the authority and 
responsibility to manage other lands with the American public 
in mind. And I have seen the northern New Mexico policy, I have 
seen a draft that has changed and updated and was dated 1997, 
but in my opinion, the lands of southern Colorado, northern New 
Mexico are no different from the public lands of Idaho.
    Mrs. Chenoweth. Have you ever heard of Kearney's Code (sic) 
or have you ever read the Treaty of Guadalupe Hidalgo?
    Mr. Horning. No, I have not.
    Mrs. Chenoweth. You ought to read it sometime. I have read 
it, but I can't speak it. Have you ever studied the Land Treaty 
Act?
    Mr. Horning. No, I have not.
    Mrs. Chenoweth. Or the Taylor Grazing Act.
    Mr. Horning. I studied the Taylor Grazing Act, yes.
    Mrs. Chenoweth. I would really like it if you would study 
that whole series of land law, because you see, I would like to 
believe that you want to do more than create conflict, and I 
could sense there was an awful lot of conflict from your frame 
of reference to our ranchers and loggers and the people who 
have been historically tied to this land. I would like to 
believe that because I think you are a bright man.
    Mr. Horning. Is that a question?
    Mrs. Chenoweth. Would you study those laws? Would you take 
time to look into the history of the land law of this area?
    Mr. Horning. You know, I think the real important issue is 
that I believe the land should be managed with an eye toward 
protecting all creatures, with an eye toward insuring that 
there be a clean and renewable and reliable source of water, 
and right now that is not the case in northern New Mexico and 
public lands.
    That is what I am most concerned about. Until those issues 
are resolved, we will continue to play an active role in the 
management of public lands in northern New Mexico.
    Mrs. Chenoweth. How long have you been here in this area?
    Mr. Horning. As I said in my testimony, 4 years.
    Mrs. Chenoweth. Where did you live before you came here?
    Mr. Horning. Washington DC.
    Mrs. Chenoweth. Who did you work for there?
    Mr. Horning. I worked for the National Wildlife Federation.
    Mrs. Chenoweth. Are you being paid by the Forest Guardians, 
is that your employer, or the National Wildlife Federation?
    Mr. Horning. No, I am employed by the Forest Guardians 
currently, yes.
    Mrs. Chenoweth. Have you ever missed a paycheck?
    Mr. Horning. Yes, actually I have. Despite what everyone 
here might think, we don't make a lot of money.
    Mrs. Chenoweth. I want to ask Mr. Vigil a question, and I 
want you to hear what I am asking him because he mentioned in 
his testimony that in the area that you have grazed, Mr. Vigil, 
you used to have a lot more livestock?
    Mr. Vigil. Yes, we did.
    Mrs. Chenoweth. And you testified under oath that the 
allotment was in better shape when there was more livestock 
there. How could that be?
    Mr. Vigil. Well, all of this moneys--last year--let me 
brief you on this--last year I was told they only had $10,000 
for their whole district in Carson. $10,000, mind you, that 
doesn't even buy the gas for their vehicles that they have, but 
yet they are doing all of this research or paperwork. These 
guys have a lot of time. They keep grinding the paperwork out 
and just take time and money and a lot of paperwork for these 
guys, and all of these moneys are going for that purpose, to 
fight these guys.
    Mrs. Chenoweth. So it has actually caused a deterioration?
    Mr. Vigil. Yes.
    Mrs. Chenoweth. Mr. Horning, in the last panel we heard 
that the White Mountain Apache Reservation has maintained 
inventory on their land of 30 board feet inventory after 30 
years of annual harvest of 50 board feet annually. Would you 
call this a sustainable forest practice? Isn't that the most 
desirable practice?
    Mr. Horning. I have never seen the forest, never been in 
the Mescalero reservation, except riding through it on roads. I 
do know that the Mexican spotted owl occurs throughout the 
Sacramento Mountains of southeast and central New Mexico, and 
biologists who study it and who know the Mexican spotted owl 
quite well are very concerned about logging practices on the 
Mescalero Apache Reservation and how they are affecting the 
viability of the Mexican spotted owl.
    But like I said, I have never been to the reservation 
except for driving through it, so it would really be 
inappropriate for me to comment on whether or not the practices 
there are sustainable. Like I said, there are concerns that 
biologists have expressed about whether or not the Mexican 
spotted owl is being adequately protected.
    Mrs. Chenoweth. I would have to venture to guess--I mean 
that is honest testimony from you--that you don't--that you 
shouldn't venture a guess, but I would have to guess that you 
have a Master's or a Doctorate Degree?
    Mr. Horning. No, I have a Bachelor of Arts Degree from a 
school in Colorado. Bachelor of Arts in history.
    Mrs. Chenoweth. Bachelor of Arts in history. What was your 
major?
    Mr. Horning. History, American history.
    Mrs. Chenoweth. Interesting. So I think that the reading 
assignment I gave you will interest you a lot. I am not going 
to ask you for a term paper or a thesis, but I really hope I 
can discuss this with you in the future, because it is a very 
exiting piece of history, the land laws here. And I think what 
a lot of people feel is that people who come in from the 
outside come in with a hostility toward the people and the 
culture who are here, and I think that these people here are 
very----
    [Applause.]
    Caren, what is the status of your group's litigation 
against the Forest Service settlement agreement?
    Ms. Cowan. We have a--I may be talking out of line since I 
haven't seen the lawyers since yesterday. There should have 
been a suit filed yesterday in individual permittees' names 
against the settlement agreement because it violates a wide 
variety of laws, including the Administrative Procedures Act in 
addition to the Forest Service's own policy.
    We have worked with permittees from both Arizona and New 
Mexico since April to protect their rights to file the appeal, 
and then asking for stays. All of the stays are being denied. 
We expect that those appeals will be denied and so we have to 
protect their interests and protect the rural families of New 
Mexico.
    Mrs. Chenoweth. Thank you.
    Gabe Estrada, in responding to a request by my Chairman Don 
Young, who asked that the Forest Service find out about which 
environmental groups its employees belong to, Mr. Eric Nest 
(sic) from New Mexico stated, if they have got this raging 
conflict with regards to the response to ranching request, if 
they have got this raging conflict of interest, they should 
recuse themselves. The judges and Congressmen do it all the 
time, why shouldn't they? How do you feel about this?
    Mr. Estrada. First of all, Chairwoman, we have a deep 
interest in our land. We live by the land. Our interest lies 
deeper than a paycheck. You stop the paycheck to any Federal 
Forest Service employee and see how deep their interest is. 
They are gone. We have them inside the government. This is the 
problem we have.
    In our particular district, we had a lady that was brought 
in from New York as a ranger. Her background was in recreation. 
What business did she have in trying to manage range, forests 
and all of the multiple resources that are in the Forest 
Service's district?
    Man, this lady, and I know there are a lot of ladies that 
fall into and are totally qualified to do what they are doing. 
I have one right on my right here. I have a lady of 50 years of 
marriage sitting here that is one of the original settlers in 
this country. There are a lot of qualified women, but we got 
one that wasn't qualified.
    We have had to go through the appeal process all the way to 
the regional office. We won because of the lack of knowledge 
that this person had. She denied and defied that grass was 
vegetative cover. She wanted 85 percent canopy cover on every 
inch of land.
    These are the problems that we have and it isn't so much 
that we are suffering. I think Mr. Vigil's testimony, he used 
to have a lot more cattle, a lot more sheep, but those meadows 
and those ranges have been closed in by trees to where now we 
have to grow the grass up high in the air instead of having it 
on the ground, covering the ground.
    We need to get rid of our canopy cover. We need to thin 
down trees, we need to make more quantity of water, and by 
having grass on the ground, God made grass to be the filter of 
water to filter these streams. These streams will purify 
themselves, as you know, but we need the water to go in before 
it can purify.
    Our belief is that if we take care of the land, the land 
will take care of us, and that is why we have wildflowers, and 
that is the way we are bringing up our children, and the Forest 
Service needs to hire the qualified people to do the job that 
they are supposed to do. Don't send us unqualified people.
    I don't mean for the Hispanic or woman to be placed in a 
position to fail, ma'am, because they are not qualified for it. 
It gives us a black eye, it gives everybody a black eye. 
Consequently in our district for 4 years we have regressed 50 
years back.
    Just to give you an example, I cooperated with the Forest 
Service and moved my permit from the area that produces water 
for the city so that we could leave some fuel for Forest 
Service prescribed burning. I went from 15 miles, getting to my 
permit to 85 miles, stayed there, and it cost me a lot to do 
so.
    When I left, they didn't burn one tree or one inch. 
Consequently, we have got more trees, more growth. We didn't 
add anything to what is supposed to be a cooperative plan. But 
the Forest Service people do with permits or used to do, 
because of our agreement I hope to get us residents, they would 
bring a sheet of paper and then they say OK, you start on May 
1, you start with so many cattle, you have placed all here and 
there, you maintain this fence, you give us a check for the 
amount of money that is due and you come out on a certain date. 
Is that a cooperative agreement? That is dictation. We stopped 
that.
    Then we sat down and we said this is what we need. We need 
a recreation system, we need this, we need that. You control 
the elk, which is a tremendously big problem in northern New 
Mexico, and they just go ahead of our rotation system.
    Mrs. Chenoweth. Mr. Estrada, let me ask you, are elk 
indigenous to this area; were the elk here 400 years ago?
    Mr. Estrada. I am not old, but I don't remember seeing elk 
in those days.
    Mrs. Chenoweth. That is another very interesting legal 
question.
    Mr. Estrada. Let me give you an example. A lot of people 
don't know. I am on--my permit is 90 days. I can take a cow 
that weighs 900 pounds, maybe lighter, but average weight of 
900 pounds of cow. She will consume in the neighborhood of 
3,600 pounds of fuel if she is there 130 days. An elk that 
weighs 600, and my neighbors behind me know this, they stay on 
the land 365 days a year. They are consuming 6,600 pounds, more 
than double. And the Forest Service doesn't have any control on 
the elk.
    It is the New Mexico Fish and Game Department who sells 
licenses and that is the only control they have. And out of 
this room, if ten people kill an elk, that is too many. The 
population is just overrunning everything and the few meadows 
that are left in the forest are being overrun by wildlife.
    They don't provide any salt. You should see the ground. 
When a block of salt stays behind, when you move the cattle 
out, they will eat the salt and eat the dirt where that salt 
saturated into the dirt three feet deep. Not the 
environmentalists, the Game Department, the Forest Service, the 
permittees are the ones that are stewards of those elk also, 
but we have no control over them either.
    Mrs. Chenoweth. Thank you, Mr. Estrada. Right now I am 
going to yield back to Representative Redmond for any further 
questions that he might have.
    Mr. Redmond. I only have one question with regard to the 
elk, Mr. Estrada. I am not an elk hunter, I will admit that. 
Would it be possible for us to speak with the State wildlife 
services who have the jurisdiction over the elk, and is it 
feasible for us to adjust the policy to increase the number of 
permits for the ranchers, the farmers so that that would 
compensate them for the forests that they are losing?
    Mr. Estrada. That would be a great beginning. That is only 
the start. You take a limited resource farmer, Mr. Redmond, and 
he has a small place, say 300 acres. Here he plants and 
harvests and irrigates. These elk come at night and they clean 
him up overnight and leave. He cannot sell a permit to you if 
you wanted to buy one because that elk isn't on his property 
when daylight comes. It came and rocked the land and took off 
into the woods, and it is on the public lands. That is just the 
beginning.
    They need to sell two or three cow elk permits to 
permittees who utilize the resources of elk meat, and thin it 
down. Right now if you ask the Fish and Game people, they want 
to allow five bulls--I mean, one bull for every five cows. That 
is unthinkable. That is what is happening right now. We have so 
many areas that nobody ever--they walk in, spend a week there, 
walk out and they don't harvest any elk.
    Mr. Redmond. I have no jurisdiction over the State of New 
Mexico in terms of elk permits, but it seems to me that if it 
appears that in certain areas of the State if there is 
overpopulation of elk and if they are utilizing the forage that 
individuals are paying for either through the permits or 
through private land, it just seems to me there needs to be 
some kind of compensation, where we can balance an 
environmentally safe balance where we can thin the elk herd as 
well and be fair with the local residents.
    Mr. Estrada. That would be a great recommendation, but I 
feel that the elk are not only destroying the deer population. 
I have been in the Mora Valley where they had six or eight 
barrels of hay and overnight herds of over 1,000 head just 
level the stock fence and it is all done. So there is more cost 
and damage. You can't hardly put up a fence to hold elk. They 
will just make like an elephant and walk through it and go on 
through.
    Mr. Redmond. You said that was the beginning. Could you 
recommend to me what a more in-depth elk policy would be?
    Mr. Estrada. They need to issue out more licenses. Most of 
the license that they have have been for male elk. I don't know 
if they are bull or the other sports allow them to kill 
females, but we need to reduce the population for the survival 
of all of them. There are areas that in the springtime some 
people go collecting antlers. I know a lot of them are still on 
the bodies that died because of starvation. This is awful that 
they have to die that way. If they were harvested, the rest of 
the population could survive. But we need to thin them down 
because of the forests.
    Mr. Redmond. Thank you, Mr. Estrada.
    Mrs. Chenoweth. I want to thank this panel for being here. 
I have many, many more questions. We had a hearing in 
Washington where we did ask questions about the lawsuit, and I 
do want to stay in close touch with you in regard to how the 
lawsuit is proceeding. I am personally very interested in that. 
I have learned a lot from you and I want to thank you very 
much, all of you, for being here.
    And at this time now we will excuse this panel and now we 
will go to the open mike.
    [Applause.]
    Mrs. Chenoweth. I will call the witnesses to the 
microphone, and if they are allotted 2 minutes for each 
individual. The first five be prepared to come up.
    The first one is David Cordova. The second one is Sylvia 
Allen. The third one is Jimmie Hall. The fourth one is Bill 
Wright. And the fifth one is Charlie Chacon.

                   STATEMENT OF DAVID CORDOVA

    Mr. Cordova. Chairwoman, Councilman, I am from Truchas, New 
Mexico. My father is Max Cordova, who just spoke before you 
here today.
    I want to tell you first my family history. We have been in 
New Mexico for nine generations. The way me and my dad think of 
the land is we think of the land as we are taking from the land 
as far as we are in it right now. This is not something that we 
think is going leave once we are gone. This is something that I 
am going give to my kids, my grandkids and their kids are going 
to have.
    There is no way in the world--when we speak of 
environmental--there is no way in the world that I think that 
any one person can come into this room and tell you that they 
are more environmental than we are.
    I have hunted in the area. I killed my first elk when I was 
10 years old. I broke my first horse in area. I see forests on 
an everyday basis. I live for the forest. Basically we live in 
the forest. For me it is not something as simple as looking at 
a piece of paper and saying, oh, I think I am going to save the 
forest today.
    When there were forest fires in New Mexico about 3 years 
ago, I was one of 60 to 70 volunteers from the community that 
went up and fought the forest fire. We called environmental 
groups and we asked them come up and help us fight the forest 
fire. Not one person did. Not one helped out with water, not 
one helped with food or drinks or anything.
    We had a gentleman that was--he lost his leg in Vietnam. 
That man is more environmental than what I think any 
environmentalist from New York or California or anyplace else.
    The New York Times has done some ads on Truchas, New 
Mexico, and they have come in several times and some of the ads 
have come out in the New York Times.
    I saw an ad about 3 years ago from the Forest Guardians, 
basically, that had a bunch of tree stumps, that is all they 
had was a bunch of tree stumps, and they were appealing for 
funding. And they said this is northern New Mexico. And what 
that ad basically said is what we need for those people is we 
need to save them from themselves because they don't know what 
they are doing.
    We have been here for hundreds of years and this land has 
been the same. What has happened out there is people have gone 
out there and ruined the rest of the United States in regards 
to cities and whatever and what they are doing and then they 
want to come to New Mexico because we haven't changed it. And 
then they say they should save the land from themselves.
    We don't want any help. We are not willingly going to go 
out there and destroy our land. That is stupid. Where are we 
going to be in 5 years? We care about the land. I am not being 
paid anything to say that I am being paid for this land or 
anything. I have affected some of the funding for some of these 
people because I have gone out there and have gone and seen the 
community point of view. And I think it is. I am getting tired 
that nobody is listening to the community. We need to have 
people listen to the community because the problem out here is 
the people here. We are more environmental than a lot of other 
people out there, and we need to be heard and listened to.
    Thank you, ma'am.
    Mrs. Chenoweth. Thank you.

 STATEMENT OF SYLVIA ALLEN, ARIZONA-NEW MEXICO FIELD DIRECTOR, 
                       PEOPLE FOR THE USA

    Ms. Allen. Good afternoon, Madam Chairwoman and Congressman 
Bill Redmond. Thank you for this opportunity. I am Sylvia 
Allen, the Arizona and New Mexico Field Director for People for 
the USA.
    For over 7 years I have watched this big debate over the 
Mexican spotted owl. I was at some of the first hearings that 
were held. We packed the auditorium of over 3,000 people, and 
everyone in that group asked that the Mexican spotted owl not 
be listed.
    Some of the questions that were asked that night is what 
sort of science is being used to list the owl. When we asked 
how many owls were here 20 years ago the representative said, 
we don't know. When we asked how many owls are needed for a 
viable population, they would say we don't know, and yet my own 
family was harmed by this.
    My brother was part-owner in Precise Pine and Timber. He 
used to move over $20 million a year. Now they are just hanging 
on with their fingernails. I want to submit to you his letter 
and his company.
    [The information referred to may be found at end of 
hearing.]
    Ms. Allen. Also there used to be a lot of families that 
used to work for his company, so you can understand what has 
happened to some of these families. One is a young man who last 
year wrote an article, educational paper, and he told about his 
family and his heritage growing up in the woods. It is a 
wonderful letter and I hope you will be able to read it.
    The other one is a family who I have been friends with for 
over 32 years. When this happened in 1995, and the forests were 
shut down, many families were forced to have to move away or 
find other jobs, and many did. He looked for work in Colorado 
and Utah, and 11 months ago he was killed in a logging accident 
in Utah. His family was put through so much stress when he 
could have worked right in our own home state.
    My opinion is that people, their very souls are being hurt. 
When we can no longer plan, dream, work, imagine, use and be 
able to make our livelihood in a way that we want to, I think 
what is the most important question here is what is happening 
to American's birthright, which is freedom? What are we doing 
to that?
    When we get together and we do forest round tables, and I 
have done some of these, nobody ever stands up and talks about 
the inalienable rights of the people, it is who owns the 
contracts. And people who are there at those events, these are 
not scientists, they are using emotions, misinformation, half 
truths and lies. By the way, these were the people who were 
hired by the Forest Service to do the owl surveys. Now this 
shows you what kind of science we were dealing with. They were 
not biologists.
    Thank you.
    Mrs. Chenoweth. I want to take care of a little bit of 
business before I call on Jimmie Hall. I do want to say without 
objection that Palemon Martinez' testimony is entered into the 
record.
    Very well then, Jimmie Hall.

    STATEMENT OF JIMMIE HALL, PRESIDENT, PRODUCTION CREDIT 
                   ASSOCIATION OF NEW MEXICO

    Mr. Hall. Thank you, Madam Chairwoman, Representative 
Redmond. My name is Jimmie Hall, and I am President of PCA of 
New Mexico. It is a federally chartered association. We offer 
credit to a lot of northern New Mexico.
    I have become very concerned about the availability of 
credit in rural New Mexico as a result of some of the Forest 
Service actions. My bank customers use collateral, their 
banking capacity and net worth of permittees. These three 
things which make up the basis of a loan are at the mercy of 
the Forest Service, who can come in and decide on a whim 
overnight. So the permittees would lose the value not only in 
their net worth but their ability to repay their loan.
    I have read that the Forest Service has said repeatedly, 
and I think some of those coming out of the Albuquerque office, 
that we didn't or we haven't put anyone out of business. No, 
they didn't, but they did reduce the annual units that the 
permittee can no longer repay his loan. So who gets to 
foreclose and wear a black hat? Me? I think not.
    I have a permittee--I have several permittees that I lend 
money to that is in the room. One of these permittees when he 
refused to sign his Forest Service document was told--I think 
he was told--but anyway he also had a loan owned by FHA. The 
Forest Service immediately notified them and they began 
foreclosure proceedings. I am not the black hat guy. Thank you.
    Mrs. Chenoweth. Thank you.
    Bill Wright.

                    STATEMENT OF BILL WRIGHT

    Mr. Wright. My name is Bill Wright. I am an independent 
resource management consultant. I am here today because I was 
asked to provide, advise, actually an assessment occurring in 
northern New Mexico. I am also here by proxy for a rancher, Ned 
Sanchez, who grazes livestock on allotment in the Spring Creek 
allotment.
    As of this week, on the Spring Creek allotment they were 
advised by the Forest Service that their livestock will be 
removed from Forest Service lands August 24. Now these people 
have nowhere to go. This part of the grazing is an integral 
part of their operation. They depend and they plan on these 
days of grazing on the public lands as part of their operation. 
So if this comes to pass, then they are going to----
    Mrs. Chenoweth. Bill, I am sorry to interrupt you. What is 
the reason they are leaving the public lands?
    Mr. Wright. It goes back to the criteria of the 30 percent 
use. The Forest is claiming that their livestock, they have 
already assumed 30 to 40 percent of utilization. Even though 
they have been practicing intensive management, they are not 
inflexible as far as by numbers, using all of the pasture at 
one time, many of these options should have been considered way 
back at the beginning of the grazing season.
    And the second issue I would like to discuss briefly was to 
expound on this elk use. I used to be on the district ranch 
staff on this very same grazing district from 1978 to 1987. I 
have an in-depth knowledge that in fact the capacity that was 
never allocated for elk back in the seventies is now not even 
grazing pasture. An example, the 50 elk were present in 1971. 
We have got 200 elk grazing in there today in 1998. However, 
the Forest base remained consistent, so consequently there is a 
discrepancy in terms of allocation.
    The environmentalists are in a position that the Forest 
Service is wrong. They need to abide by regulations to manage 
their own property. The ranchers right now are the scapegoats. 
Thank you.
    Mrs. Chenoweth. Charlie Chacon.

                  STATEMENT OF CHARLIE CHACON

    Mr. Chacon. I am very pleased you folks are here. I am very 
indebted to you both. Thank you. My name is Charlie Chacon. I 
am a permittee. I have one in Colorado and one here in the Kit 
Carson.
    I see a lot of the permittees here and a lot aren't 
present, but nevertheless, I would like to touch on some of the 
things that I think that need some bringing up. One of them is 
water in the allotments. Regardless of whether it is BLM or 
whether it is Forest, we are having no water, and that would do 
us a lot of good not only to our personal holding but also to 
elk.
    The other thing, the brush control is out of hand. We have 
so much brush that our cattle can't get to some of the pastures 
that were available many years ago. I am old enough to know and 
old enough to remember when they started fencing the forest 
lands. This happened way back. Since then, I see that our lands 
are going to waste because the uses are very limited.
    And so there--and to answer Mr. Horning's comments about 
the cattle are everywhere, that is a big lie. Our cattle are 
tagged and they are counted before they go into these 
allotments. So what he is saying, he is bringing it up on his 
own.
    That is all I have to say. Thank you.
    [Applause.]
    Oh, I have one more comment. These environmental groups, 
all they are trying to do is starve us to death. What they are 
trying to do also, if that don't succeed, they will put us in 
big ovens like the Nazis did to the Jews, the people in 
Germany.
    Thank you.
    Mrs. Chenoweth. The next five who will testify are David 
Sanchez, William Moore, then Ernest Torrez, and then Carl Smith 
and then Warren Reed.

                   STATEMENT OF DAVID SANCHEZ

    Mr. Sanchez. Congressman and Chairwoman, I want to thank 
you guys for taking the time in coming to the Espanola Valley, 
to New Mexico to listen to our needs and problems. These 
problems and needs are not new. These issues have been existing 
since the first part of this century.
    Unfortunately we have an element today that we didn't have 
then, and I am referring to the environmental groups that 
brought a lot of problems, stress, everything that they have 
brought through their litigation and their slandering of our 
way of life and the land out here.
    I credit Mr. Horning, the likes of him, for being an 
entrepreneur and finding a new way of making a living, but it 
just doesn't fit in northern New Mexico and we wish he would 
take it elsewhere.
    [Applause.]
    My grandfather was born in the Juan Jose Lovato Land Grant 
which is just west here. Today it is under the management of 
the Santa Fe National Forest. We still operate as permittees in 
that land grant. It is Federal property under a set number of 
AUM's and permits. Those determinations of carrying capacities 
were made in the middle part of the century, and I say today 
that they were very conservative, because we were only granted 
a small few permits.
    Today we have thousands of elk, approximate numbers of 
50,000 in the area, and never did the agencies or we the people 
envision that we were going to have this population explosion 
of elk.
    The Forest Service has basically held meeting incentives to 
manage the land appropriately and do the right thing as many of 
us have, and that the lands today are what they are because of 
how we have taken care of them. But I think it is totally 
unfair that we were only given a few small amount of permits 
and yet they allow the Game Department of New Mexico carte 
blanche to run as many elk as they like to on there with no 
accountability on the impact it has to the resources.
    This is unfair on how the land is being managed, the 
responsibility. We have questioned the Forest Service, who is 
responsible for the number of elk out there, and they say it is 
the Game Department.
    The only management that the Game Department has 
illustrated to us is that they have bag limits. That is 
inconsistent with carrying capacity and the resource. It 
doesn't matter what species it is, it should be managed with 
carrying capacity.
    We are opposed to that double standard that we have been 
treated the way we have been treated. There should be an 
opportunity for more permits. The Forest Service can sustain 
50,000 elk, I think they can allocate a few more permits so the 
people can make a living in northern New Mexico.
    Thank you.
    Mrs. Chenoweth. Thank you, David Sanchez.
    William Moore.

                   STATEMENT OF WILLIAM MOORE

    Mr. Moore. Thank you for the opportunity to be here, it is 
a pleasure. I want to tell you about what the Endangered 
Species Act is and how it affected me. It halted all current 
timber sales under litigation at the time, of which I had 
multiple contracts for.
    During that time, I had big deposits with the Forest 
Service and interest on which I never received anything back as 
I expected. Also, stress on my family and my father, too, and 
stuff, and we were concerned about our future and where we were 
going to go. I own a sawmill and a logging company and I still 
do today.
    I believe that the forest must be opened up and not allow 
catastrophic fires to happen. Pretty much with this Endangered 
Species Act, I have been brought to almost a complete halt. I 
believe environmental stuff is really a large part of the 
deficit sales here. This is a bunch of expense for no reason.
    In my view, it is also affecting my net worth and my way of 
life. My father and I built our sawmill together and we have 
quite a working relationship together and a big family unit 
that we enjoy, and that is our way of life. Trees are renewable 
resource. There is already 3.2 million acres of wilderness area 
in the State. How much area do we need to set aside for special 
interests?
    The local demand for products here is very strong, but we 
have no way to get in on the National Forest. If you really 
want to know how the trees are doing in the forest, call to 
Albuquerque and get a copy of the inventory for Region III; 
1910 and in 1987 they were prepared. The trees are holding very 
well. There is no reason to shut down the industry whatsoever, 
big or small.
    We need everything, because the people that will work at 
the big mills have their own individual needs also, and we are 
not depleting the resource at all. We need a solid state of 
material to run our family business with. How can our business 
grow with constant litigation under the current laws which the 
environmentalists take advantage of to shut us down.
    We are being abused and the laws need to change, the 
Endangered Species Act needs to be changed. People need to be 
brought into the equation. We need economics and growth to meet 
the needs of our people. Multiple use must be promoted just as 
loggers are like farmers, just like agricultural pursuits are 
their way of life.
    It is needed, it is here and needs to keep going, and I 
appreciate your help in this interest. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Moore.
    Next we call on Ernest Torrez.

                   STATEMENT OF ERNEST TORREZ

    Thank you, I appreciate this opportunity. My family is from 
La Hada, New Mexico, which is near the Cuba area on the other 
side of the mountains here.
    I am on the Acequia Commission of our community, which is 
something I didn't volunteer for. I was basically appointed by 
family to represent family on this.
    It is very difficult for me to speak of these kinds of 
things because there is a passion that we have where I am from, 
the land. We have passion to keep doing what we do, and the 
family things are inseparable.
    I can't really appreciate some of the references this 
gentleman here, this Mr. Horning, has for anything. It boils my 
blood to have him under the same roof with me, but that is the 
way the rules of the game are played.
    I have a document here. I wanted to bring this document, 
``The Potential Economic Consequences of Designing Critical 
Habitat for the Rio Grande Silvery Minnow.'' It is pertinent to 
this discussion for a lot of reasons. Fish and Wildlife is 
deciding whether or not to designate the Rio Grande cutthroat 
trout as endangered. It is going to put a knife--well, it is 
going to start a war and then it is going to put a knife in 
people's hearts.
    This document says on page 115, ``All else remaining equal, 
reductions in Socorro County have a greater likelihood of 
affecting low-income groups, given the concentrations of 
persistent poverty in the county.''
    There is no regard here for the human equation. I guess 
that is pretty obvious. It really--it concerns me, this 
Endangered Species Act, because tomorrow is my son's birthday, 
he is going to be 5 years old. This past June when I was 
irrigating off the Acequia, he was in the mud just like I used 
to be in the mud. He has got more hands-on biological knowledge 
than Mr. Horning does. He can tell you what a salamander is, he 
can tell you what a Rio Grande cutthroat is. By the way, we did 
capture three of these semi-endangered and we had them for 
lunch right out of the ditch.
    What I am trying to bring forth here is how absurd the 
absurdity of this law is and how much it is affecting families. 
It is directly impacting families. We are not rich by any 
means. We are rich in culture, maybe a few hundred acres of 
private land, but it is going to go down the tube unless you 
guys can tell your eastern, your Yankee counterparts in the 
Congress that, don't tread on my family. We will suffer no 
one's blood on our neck.
    Thank you.
    Mrs. Chenoweth. Thank you Mr. Torrez. I would like to make 
the documents a part of the record. What page was that on about 
the water rights?
    Mr. Torrez. I think it is 115.
    Mrs. Chenoweth. Page 115. Thank you very much.
    The Chair recognizes Carl Smith.

                    STATEMENT OF CARL SMITH

    My name is Carl Smith. I am a permittee from northern New 
Mexico. Our family has been up here a lot more than 4 years. 
Now, I have got a brother-in-law that was in the logging 
business, a long time operation, that went under because of the 
Mexican spotted owl. His operation went out of business several 
years ago. His children have left the State, I think his wife 
soon will, and I haven't seen any spotted owl yet.
    I think this Endangered Species thing is a big charade. I 
don't know how many spotted owls you have spotted in your 
country since you put all the loggers out of work, but I 
haven't heard one.
    Now, we are facing the same problem with our grazing 
situation. We want to take care of the land. We are firmly 
committed to not causing deteriorating ranges, but we are 
facing, for the first time, the new 40 percent forage 
implementation rule which didn't sound too bad to us. We 
understood we had been using 50 percent of the forest this last 
year and know we are going to be using 40 percent.
    Most of us wanted to see better conditions on the range so 
we weren't all that opposed to it. What it amounts to is that 
as soon as your cattle have eaten a little bit of grass and 
drank a little water, though they may not have touched the 
grass on that side, it is time to move. So now we are looking 
at coming home, some of us after 1 month, some after 2 months, 
after going on 10 days to 2 weeks late. We are buying hay, we 
are doing everything we can think of to survive, but it will be 
impossible for many operators to continue given this new plan 
that the Forest Service has, and we feel unrepresented. We 
don't know whether to believe what the Forest Service is 
telling us. If they tell us we have got to do it, we don't know 
whether we have got to do it.
    I sure hope you can straighten this mess out. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Smith.
    The Chair recognizes Warren Reed.

                    STATEMENT OF WARREN REED

    Mr. Reed. I am beginning the fourth generation of grazing 
in the Carson National Forest Service and private and public 
land in northern New Mexico. I have the land, I hope to keep 
it. I can't keep it under the present conditions. I have 9 days 
from now until the 24th of August to decide what I am going to 
do with what was mandated under the new provisions of the 
Forest Use Act.
    I submit that they either be sold or the process will take 
away the heritage and land which we have. I think that the 
decision that is made to come out on the 24th of August, it was 
based on a couple of things. One is on the 10 to 12,000 acres 
of land. There were two cages that were put there by the Forest 
to measure the amount of forage that was gone. I would say that 
is not enough to adequately measure all except the very small 
area in which these cages were put.
    I think also that we need to look at the fact that the 
decision to move from the forest was probably made early in the 
spring, not given a chance for the rain or the growth expected 
as things and time passes.
    Probably the biggest issue is can we take care of the 
forest and work to better it, but we do need to have an input 
and be able to stay for the length of time that our signed 
agreement calls for. Thank you.
    Mrs. Chenoweth. The next five will be first Brian Sanford 
and then Bud Eppers, Paul Bandy, Claudio Chacon, and Moises 
Morales.
    Brian Sanford, please come to the mike.

                   STATEMENT OF BRIAN SANFORD

    Mr. Sanford. Thank you, Madam Chair, Representative 
Redmond. I had the privilege of sitting in one of the only 
chairs that was in the sun through that window.
    Thank you for coming to New Mexico. I appreciate you coming 
down here to hear the issues. My name is Brian Sanford, and I 
am a Range Resource Specialist with the New Mexico Department 
of Agriculture, which is the State agency representing 
agriculture in New Mexico.
    Today I am representing Secretary of Agriculture Frank 
DuBois. He couldn't be here, he has got a very sick grandson, 
but he also wants to extend his thanks for coming to hear the 
issues of the constituents, your constituents, Representative 
Redmond, and people who are very much concerned about these 
issues.
    I really have no oral comments for this Committee today; 
however, I have brought the written testimony of Secretary 
DuBois. I think that was given to your staff a couple of days 
ago. If you have any questions on that, myself and other staff 
are here to answer them.
    The testimony concerns the general decisionmaking 
atmosphere of the Forest Service that is occurring right now. A 
lot of this is due to NEPA compliance. There is a very myriad 
of issues.
    Also the testimony concerns two very specific examples 
which staffers from our department, myself as one of them, find 
very interesting and they are specific to allotments. And I 
hope that this kind of testimony helps to present the issues to 
you.
    If you do have any questions about that testimony, either 
now or in the future, we would love to clarify and discuss them 
with you. As I say, I yield the remainder of my time. Thank 
you.
    Mrs. Chenoweth. Mr. Sanford, could you elaborate on the 
testimony a little bit?
    Mr Sanford. Sure. I guess overall, our testimony regards 
the way in which the Forest Service has not collected data in 
order to make their decisions. They have not insured that their 
permitting process complies as such, and they haven't taken 
action against grazing and timber. Those would be the two large 
issues.
    Also my professional opinion, they have allowed the Fish 
and Wildlife not to tell them how many species and how much 
habitat they need, but they have allowed the Fish and Wildlife 
to tell them how to get it. So the Fish and Wildlife Service's 
job is to tell them how many species they have in their habitat 
in their forest, but it is the Forest Service's job to go out 
and use the tools at their discretion. However, the Forest 
Service's job is to dictate both.
    Now a specific example concerns two allotments. However, 
there are several individuals here from Spring Creek allotment 
that are involved in this issue and so the issues are the same 
throughout the State, the concerns are. I provided you with 
planning the processes on the Gila, two specific permits which 
are really in compliance, and that is why there is some very 
interesting things going on down there that you can read about 
in bullets highlighted within to try to educate you. And I can 
go into those if you want me to or I can--our staff would love 
the opportunity to visit with you, Representative Redmond and 
yourself or your Committee, to try to begin to look at some 
ways to solve these problems with these Federal agencies.
    Mrs. Chenoweth. Thank you. That is very interesting, and we 
will look forward to submitting more questions to you.
    Mr. Sanford. All right, thank you.
    Mrs. Chenoweth. If you would be sure and drop your 
testimony off with the court reporter.
    The Chair recognizes Bud Eppers.

                    STATEMENT OF BUD EPPERS

    Mr. Eppers. Representative Redmond and Chairwoman 
Chenoweth, welcome to New Mexico, the land of opportunity, the 
land of enchantment and opportunity. We are here today to focus 
this hearing on the issue of settlement agreements between the 
Forest Service and the environmental organizations.
    I think the record really needs to record that that 
settlement agreement was never signed by a judge. It was an 
agreement that was reached between the environmental 
organization and the Federal agency, and they went out and told 
the permittees, the Forest Service went out and told the 
permittees that they had settled an agreement under which they 
had to maintain fencing of riparian area, and this is not true.
    I would ask for the record to reflect this and you all 
check into it, because that settlement agreement was not signed 
by a judge.
    We talked about the sweetheart arrangements between the 
environmental organizations, and I have been involved in 
several pieces of legislation or litigation over the past 
number of years, and I can tell you the sweetheart arrangements 
between the Justice Department and the attorneys for the BLM 
and Forest Service and the State at the regional levels have a 
very close-knit situation.
    The environmentalists would hold up a hoop and the Justice 
Department and attorneys for the agency would try to jump 
through it just as high as they can. In addition, then of 
course they settle out of court and pay off the exorbitant 
legal fees of the environmental organization. This is a heck of 
a sweetheart deal, one that I think needs to be looked into 
very carefully by your Committee and Congress as a whole.
    My main focus was on mining millside on Forest Service land 
that was broken into by Federal Forest Service personnel and 
the State environmental department personnel. The individual 
filed suit in court to have a trial by jury within the State of 
New Mexico.
    The Federal courts immediately, or the Federal judges 
immediately had this case taken out of state court and put into 
Federal court, denying this individual a right of trial by jury 
as is provided by our Constitution.
    In addition to that, they also in the Tenth Circuit Court, 
they appealed this to the Tenth Circuit Court, and the Tenth 
Circuit Court ruled or stated that it must be pointed out that 
the Forest Service employees are aware that they are not 
subject to perjury in the Tenth Circuit.
    It appears as of 1991, the Tenth Circuit has determined 
that those Federal employees who gave perjured testimony are 
absolutely immune from Section 1986 actions in Bristol v. 
Lahue, 1983. The Tenth Circuit found that the judgment and the 
decision are absolutely immune from giving perjured testimony 
and conspiring to give the same.
    Congressman, you have the authority under the Constitution 
to change this, and I would request that you all do so. Thank 
you very much.
    [Applause.]
    Mrs. Chenoweth. Mr. Eppers, I can assure you that I feel 
very strongly about the judge who made that decision. That 
never came through the Congress, and I am pleased at your great 
understanding and irritation, and I am surprised you are not 
angry about it, but it is something that we in the Congress 
must deal with or we won't see a turnaround in the direction we 
are going right now.
    So thank you very much for your valuable testimony.

                    STATEMENT OF PAUL BANDY

    Mr. Bandy. I want to thank you both for being here and I 
want to congratulate you this hot afternoon. I am a rancher 
from Aztec, New Mexico. I have cattle on BLM and Forest Service 
and in Colorado, and I would like to comment today on something 
that I haven't heard anybody make a comment on, and that is the 
remarkable proliferation of species that is indicated by all of 
this litigation and controversy.
    My understanding is that ``species'' is a Latin word that 
means ``kind,'' as in God created animals in their own time. 
And if you look in the dictionary, it says that species is part 
of a group of animals that can reproduce, that can have both 
viable and fertile offspring.
    Now, we had a willow flycatcher in Farmington last spring, 
and we were talking to the Fish and Wildlife biologist about 
the willow flycatcher, and it seems the southwest willow 
flycatcher which we consider endangered is virtually not 
related to the northern flycatcher, and of which there are 
many.
    I guess you have more flies in the north, although I have a 
hard time believing that. But for some reason that this animal 
we presume is endangered, experts cannot tell the difference 
except by their song, that the flycatcher is not even 
endangered here, though they might actually be part of the same 
species, as confirmed by Mr. Webster.
    I really find it remarkable that the administration has 
time to help God with the creation of species and that this 
really seems like a travesty not only against science but 
against the English language.
    Thank you.
    Mrs. Chenoweth. Thank you very much Paul.
    Claudio Chacon.

                  STATEMENT OF CLAUDIO CHACON

    Mr. Chacon. My name is Claudio Chacon, and I am a rancher 
in northern New Mexico. I was co-founder of an association 
which lies approximately 70 miles from here in the north.
    Our problem is that we are adjacent to the Chama Wilderness 
Area and also adjacent to the wilderness study area. The 
wilderness study area, in my opinion, is a ploy to set aside 
some lands so we couldn't use them anymore. We are being 
adversely affected by the wilderness study area. We haven't 
heard from the Bureau of Land Management or the Forest Service 
at what point it is going to be culminated, and we would like 
to see the study culminated so that we can again gain use of 
the lands.
    In my estimate, the study area doesn't meet the 
destination. We have got developed properties that are in the 
study area, there is developed roads on it, there is fields of 
wheat grass, there is windmills, and all of this area is being 
considered as part of the study area.
    I would like to see or have an answer from somebody as to 
when this is going to be finished so we can go ahead and start 
using these properties. It is really hard to get used to 
because of the restrictions on the study area. We try to do 
some brush control, and we are told by the Bureau of Land 
Management from Taos that we couldn't do chemical processes, 
spike treatments on the land, and as a result we are losing 
forage on the property.
    Again, I would just like to find out when this is going to 
end so we can have an idea. We are not getting an answer from 
anybody. Also at the onset, when we were advised of this study, 
it was not stated to what the limitations were going to be. We 
didn't know and weren't advised that we weren't going to be 
able to use these lands as we had anticipated.
    Thank you.
    [Applause.]
    Mrs. Chenoweth. Thank you very much. Mr. Redmond just 
indicated to me that his office specifically will offer to find 
out the answer to your question.
    Mr. Chacon. Thank you very much.

                  STATEMENT OF MOISES MORALES

    Mr. Morales. Representative and Chairwoman, my name is 
Moises Morales. I am a County Commissioner. I represent a tri-
culture county. I want to talk a little bit about the Guadalupe 
Hidalgo and also about the Forest Service and the problems our 
neighbors in the area are having.
    The treaty of Guadalupe Hidalgo was signed in 1878 by the 
two great nations and must be honored. And that is why, 
Representative Redmond and Ms. Congresswoman, we want you to go 
back to Congress and give us justice in this land grant issue.
    I am very offended when we have people from Washington, DC, 
that can't even clean up the Potomac River, to come over here 
and tell us how to run our lives. This land here in Rio Arriba 
County and northern Colorado is a healthy area that the people 
can live with their families and all cultures have kept it 
healthy.
    These people that come from Washington, you know, if I 
would go to Washington and you were conducting a hearing over 
there, you wouldn't pay attention to me; you would pay 
attention to the people in Washington. And I don't know how it 
is in Idaho, but you would pay attention to Idaho. But today I 
am asking you to pay attention to all of these people here in 
Rio Arriba who have been almost destroyed by these 
environmental groups of the government and by the Forest 
Service. They are trying to get rid of all farmers and ranchers 
in this part of the country, indigenous and all kinds of 
cultures.
    When I was growing up with my grandparents in northern New 
Mexico, the Forest Service Fish and Game took the land away 
from my grandfather because he did not know how to speak 
English. He had four permits in the mountains. My grandfather--
I was too small or I would have stopped it. A week later they 
brought that animal back rotten.
    These same people have lied all along like they are lying 
to these cattlemen that they are taking their permits away 
from. In the 40's they took our winter pasture away. They told 
our grandparents we are going to take your winter pasture away 
to repair it and then we will give it back. That day has never 
come. In the 50's they took away our mule, cow permits and this 
has never stopped.
    I mean we get involved in human rights, owls or whatever. 
Everybody in Rio Arriba pays taxes. I am asking you people, go 
back to college and change this before we have another Rio 
Arriba Courthouse raid that happened in 1867 because of what 
they were doing to our people. Thank you.
    [Applause.]
    Mr. Redmond. Thank you for your comments, Moises. Just a 
quick update. The land grant of Guadalupe Hidalgo and the Act 
of 1997, we were hoping to have it up to the floor for a vote 
before the August recess. As a result of the two shootings at 
the Capitol building, we lost over 20 hours of floor time and 
so all of the preparation--we do have in our possession a 
letter from the majority leader that the bill, H.R. 2538, will 
come to a vote between now and the 15th. They have assured us 
of a vote between now and the 15th of September, and at this 
particular juncture it takes 218 votes to pass the land grant 
bill. We have commitments from 225 Members of Congress who said 
they will vote yes for it. So unless they change their minds, 
God willing, between now and the 15th of September, for the 
first time in history we will pass through the House of 
Representatives both the lands grants.
    Mrs. Chenoweth. We have three witnesses left, R. C. Posey, 
Dennis Braden and Porfirio Cisneros.

                    STATEMENT OF R. C. POSEY

    Mr. Posey. My name is R. C. Posey. I can't write very well. 
It shows you how poor our schools are. Chairwoman, I really 
appreciate you coming here. It has been a fantastic experience. 
I am from the southern part of the State. I am a native New 
Mexican from Alamogordo.
    I am going to contact Congressman Skeen's office and 
suggest he have a similar hearing in the southern part of the 
State. I think it would be very informative for a lot of 
people. Also where you talked about education a while ago, I 
consider that people, even though they don't have college 
degrees, they do have a doctorate in hard knocks, because they 
are survivors, and if they weren't they wouldn't be here.
    Three sets of my great grandparents moved to the Sacramento 
Mountains in the 1880's. They came to graze their cattle, and 
it is funny to me that they have had cattle in the forest land 
for over 100 years and now all of a sudden they are causing 
problems, and I just don't understand that.
    As far as the spotted owl is concerned, they are doing a 
lot of logging in the Sacramento on private land, and where 
they are logging and kind of tearing up the land a bit, the 
owls are moving in there because they can get the moths. Others 
places the Forest Service is going in and feeding the owls. How 
much money is that costing us?
    Besides the logging and losing the logging, it is costing 
us money to have these people go out and feed the owls. The 
Forest Service recently had a meeting to talk about potential 
thinning of the Forest Service down in the Sacramentos.
    It is very interesting that they want to cut and burn trees 
up to nine inches, nothing over nine inches. The sawmills can't 
use anything under nine inches. Now where did that come from? 
Very interesting.
    I have also noticed that a lot of the data, a lot of the 
things that the Forest Service and the environmental activists 
and the animal rights activists, they base a lot of their 
information on emotion only and no scientific data. As far as 
the elk is concerned, I have been working with the State Game 
Commission for over 2 years. It is a very good group. We have 
been trying to work on elk and deer problems and also other 
types of problems, and, Congressman Redmond, I would be glad to 
talk to you after the meeting is over with about anything that 
I am able to help in that regard.
    Also for everyone's information, there will a State Game 
Commission meeting Thursday and Friday in Albuquerque starting 
at 9 at the Hyatt Regency. Everyone is invited to attend. At 
the end of the meeting everyone has 3 minutes to speak on any 
issue that you want to speak. I would encourage you to go.
    If anyone has any questions or you can't go, get in touch 
with me and I will be sure and bring it up. Thank you.
    Mrs. Chenoweth. Thank you Mr. Posey.

                   STATEMENT OF DENNIS BRADEN

    Mr. Braden. Madam Chairwoman, thank you. Thank you, 
Congressman Redmond, for the activity you have shown in the 
grass roots and home front and it is appreciated.
    I have got a conundrum in that I am neither an eloquent 
speaker and I put together more notes here than I could 
probably do in a few minutes, so I am going to speak fast.
    Mr. Horning and myself have something in common. It is that 
we have both been in northern New Mexico 4 years. That is where 
our commonness ends. I am west born and west raised. My 
dependence and love and interest in public land and private 
lands are concurrent with the majority of people in this room.
    Most of my life I have been positive about the future of 
public land ranching, and I thought that probably we would 
maintain the use of the land. I think probably in the last 50 
years the positive--I realize that we are playing with groups 
that don't play legally or ethically or morally. Mr. Horning 
made a comment about ranchers not being able to change. But 
education of ranchers have risen just like with most other 
industry. Either with citizen flow, grazing techniques that are 
recognized at universities as well as agencies as scientific 
data, these are ignored by the environmental communities. And 
it is because they are not interested in better land 
management. They are interested in abolishment of grazing.
    Also, our interest is not participating with the 
environmental sector. Congressman Bingaman just had a 
roundtable this morning. It was under an environmental agenda 
and environmental format. Fifty percent of the people that 
participated in that were ranchers and 50 percent 
environmentalists, so those were very interesting.
    I have got to say, and I will hurry, one of the biggest 
problems that I think that we see is that we are legislated to 
and laws are passed from faceless people that will know neither 
us, the situations that we are in or the land we are on.
    One of the things that would be particular to this would be 
the regionalized or localized Federal land management to where 
the agency people had to look me or these colleagues in the eye 
when they have policy or laws that affected us and they had to 
live day-to-day with the same law that they passed.
    Thank you.
    [Applause.]
    Mrs. Chenoweth. Porfirio Cisneros.

                 STATEMENT OF PORFIRIO CISNEROS

    Mr. Cazares. Thank you, Madam Chairwoman. My name is Cody 
Cazares and I will reading on behalf of Mr. Cisneros.
    Porfirio Cisneros is the father of Floyd Cisneros, a 
permittee on the Questa Ranger District of the Carson National 
Forest. Floyd Cisneros was killed in a mechanical accident this 
past week and had intended to testify or present information on 
the problems he is facing on his sheep permit.
    Porfirio Cisneros indicated his son was the current holder 
of the sheep permit. Porfirio held the permit previously and 
his father and grandfather before him. The family has held the 
sheep permit more than a century and even today wants to 
continue to operate as a sheep permit.
    The problem appears to be that the U.S. Forest Service has 
reduced the sheep permit from 235 to 135 head and now wants to 
remove sheep from the allotment to accommodate stocking with 
Big Horn sheep. He has been offered a change from sheep to 
cattle at 27 head. Where--there is a question mark.
    The Cisneros family does not want to change from sheep and 
fears the action may result in a loss of their grazing permit. 
The allotment area and beyond is best suited for sheep grazing. 
The Cisneros family feels a need of assistance and protection 
on what they feel is a long standing interest and right. On 
behalf of the Cisneros family, I thank you.
    [Applause.]
    Mrs. Chenoweth. Thank you. Now I would like to call our 
esteemed Mayor for some final words before we close the 
hearing. Mayor?
    Mayor Lucero. Thank you very much for this great day. I 
guess many of us learned so much today and it was great to be 
here. One of the things that have not been pointed out that I 
would like to point out is that over 75 percent of the land of 
Rio Arriba County is controlled by the Federal Government. Only 
25 percent of the land pays taxes, and then you people wonder 
why we have over 10 percent unemployment.
    If you took 75 percent of the land away from many other 
areas, they would have over 10 percent unemployment also. It is 
unfortunate that before, maybe 50 years ago, we all shared the 
land and shared it so well. Then all of a sudden they began to 
take our land away from us. Today we have to live in quarter 
acre lots in a trailer house. These are the errors of the 
original land of New Mexico because we have lost our lands.
    Now what is left. This building here is all New Mexico. The 
timbers above are New Mexico timbers. This is made of Mother 
Earth, of bricks and mortar. Everything that you see here, 
Madam chair, is New Mexico. This is the beauty of New Mexico. 
This is what we are, this is what we love. We can't have this 
taken way from us, but yet we seem to feel, as has been shown 
today, that every day we lose more and more and more of our New 
Mexico to more and more and more of the bureaucracy of 
government.
    So we want to give you on behalf of the people of northern 
New Mexico a little bit of New Mexico so that you can take it 
with you back to Washington and eventually to Idaho, a very, 
very beautiful state, and the only other state that I would 
live in other than New Mexico, it would be Idaho.
    This is a pot of a black pot of the Santa Clara. Carved on 
the pot is a forest, the forest of New Mexico. On the pot is 
also carved an elk. The Bald Eagle of the United States of 
America, the Bald Eagle of New Mexico. This is made of Mother 
Earth, Mother Earth, New Mexico. As we all are made of Mother 
Earth, New Mexico. So please take a little bit of New Mexico 
back with you and come back soon so that we can show you the 
land we love, the land that is us.
    [Applause.]
    Mrs. Chenoweth. Ladies and gentlemen, I am going to stand 
up to make my final comments. I just want to say it has been a 
very memorable hearing. I have learned a lot. I have said that 
a number of times. But I really know how you feel. I really 
feel what you feel, and I don't ever want you to give up hope. 
We have been through tough times before.
    Our land, whether it is on your land down here, our land in 
Idaho and the land across this Nation, our relatives together 
have mixed our blood when we have had to fight and bleed for 
this land.
    So I really feel what you have said today. It means more to 
me than just establishing a hearing record. The very 
interesting issues that I want to look into specifically, and I 
would like to be back in touch with Mr. Bill Wright with 
regards to the issue of the history of the elk coming into this 
area, this is not a species that is indigenous and I think 
probably most lands rights predate the elk coming in. And there 
is a very interesting question that comes up and that is if you 
bring another species in that consumes your water rights and 
consumes your forage rights, which you have a right to forage, 
a private property use right in my opinion, and there are cases 
that are continuing to be enforced, existing law that has built 
itself like a strong pillar, but unfortunately, it is being 
ignored right now.
    Yes, these are tough times and I find that no wonder people 
want to come to this area because the openness of the hearts 
and the minds and the homes of you people. But people have not 
always acted with regards to respect and been good guests and 
been good newcomers here.
    It grieves me to see the lack of respect and the 
unwillingness to really understand the culture of this area. 
People who aren't willing to understand, they are missing so 
much. I do want you to know you are not alone in this fight at 
all. We hear you and there has been a speeding freight train 
that seems to have been running out of control down here. It 
seems to have moved our country to the point where private 
property rights are no longer regarded as they should be, and 
the rights of the States to control their water and protect 
people's water rights. It is not being regarded in the same 
way.
    But let me tell you, I can see from one end of this Nation 
that people are waking up, and the days of the conflict 
industry are numbered. They are numbered because they are 
losing credibility. We welcome everyone's testimony. I 
represent the people, and you, so I think we need to continue 
to encourage that intellectually, integrity and honesty with 
one another and just know that we are never going to quit.
    We will never, never, never give up. Our land here in 
America means too much to us, doesn't it?
    Mr. Redmond. It has been a long afternoon, but I believe it 
has been a fruitful afternoon. I think that this meeting is 
decades late, but nevertheless Washington has come to Espanola. 
I want to thank our gracious host, Mayor Lucero. Let's have a 
round of applause for him.
    [Applause.]
    Richard, thank you. Thank you very much. I want to thank 
the gentlewoman from Idaho for coming and for hearing, and not 
only for hearing and seeing, but also for feeling the needs of 
the people of northern New Mexico. I want to thank you.
    [Applause.]
    And I just want everybody to leave here assured, knowing in 
your mind and your heart that Bill Redmond, your Congressman is 
going to be there for you. (In Spanish.) Thank you.
    Mrs. Chenoweth. Let me say the record will remain open for 
10 days for any of you who wish to supplement your testimony 
with any documentation that is pertinent to the body of your 
testimony.
    And please know that we may also be submitting questions to 
you and we would like for you to answer those questions as 
quickly as you possibly can.
    With that, this hearing is adjourned.
    [Whereupon, at 6:52 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
          Statement of Antonio DeVargas, La Madera, New Mexico

    I am a lifelong resident of Northern New Mexico, was raised 
in the village of La Madera by my grandparents and have earned 
my living out of Forest Resources for 28 years. I joined the 
United States Marine Corp in 1964 at the age of 17, and served 
a tour of duty in Viet-Nam from 1965 to 1966. When I returned 
from ``Nam'' in 1966 I found that a large number of war 
resistors from all over the Country had hidden in our Forest 
Communities, had been accepted by the people, and had acquired 
land.
    My grandparents and their parents and grandparents all were 
born and raised in this same area and subsisted from the land. 
In the early 1900s, the Forest service made it's presence felt 
in our area. According to my grandfather, they went house to 
house informing the people about their mission. They described 
their mission as ``Managing the land to improve it for the 
local people, and repeatedly reassured the people that they 
were not going to own the land, only make it more productive 
for their benefit and their heirs''. Shortly thereafter a large 
timber harvesting operation was initiated that employed the 
people in logging, milling, and the building of the railroad 
line known as the ``Chili Line'' to extract the timber. My 
grandfather worked on the rail road and in the logging 
operation. My grandfather would describe the Forest Service and 
other government employees as ``Americanos,'' he never spoke 
English.
    After my service in the Military I worked in different 
States and finally came back in 1971 to work in the forest. I 
earned my living as a trapper, a hunting and fishing guide, I 
planted trees for the Forest Service and conducted thinning 
operations for the same. I also did taxidermy work to 
supplement my income. I have worked for private industry as a 
logger from 1972 to the present, all in Northern New Mexico. I 
have also been a fire fighter for 10 fire seasons in the 
Western United States.
    In the past 6 years I have been deeply involved in the 
ongoing fights with groups who are intent on denying the local 
people access to the use of the Forests. The battles have been 
very bitter and very destructive to the villages and villagers 
of Northern New Mexico. I suspect that all rural dwellers in 
the western United States are under similar assault. The damage 
that is being done is very deep in that it is causing the local 
people to resent all newcomers and to view them as well as the 
government as the enemy. This is very disturbing because there 
are a lot of well meaning people who are being and will 
continue to be hurt on both sides of the issue for a very long 
time, and because if this trend continues, violence may be the 
only recourse that the locals will believe they have. If this 
happens, nobody wins and the greatest victim may be the very 
forests that all are trying to protect.
    My experience with this issue is that the groups that seek 
to restrict access are really intent on displacing rural 
dwelling people in order to take over the land and resources. 
They think that people who live in rural areas have no 
political clout because of our small numbers, and that being 
raised in remote areas, our level of education and 
sophistication needed to survive in urban areas renders us 
ineffectual in terms of offering alternatives to their agenda. 
It is a very cynical and insidious assault on an entire 
people's custom, culture and traditional use of the land and 
the resources for their survival. They claim to love the land 
and that they only want to protect it, it is reminiscent of the 
Forest Service telling our ancestors that they only want to 
make the land more productive for the villagers when in fact a 
land grab was then, and is now progress.
    In regards to the health of the Forest, I personally do not 
believe that it is in the level of distress that these groups 
seem to think it is. Most of the people involved with these 
groups are urban dwellers who have lost contact with the land, 
have only limited book knowledge of the land, and have 
absolutely no subsistence need for the land. They only wish to 
make our homeland into their playland now that the rural 
dwellers have made it safe for them and others who would 
otherwise be terrified to venture into the wilderness without 
clearly marked trails or a support system should they get lost. 
They forget that the support system was set up by the very 
people they wish to be rid of.
    In terms of Forest health, I believe that thinning needs to 
occur because the Forest is very overstocked. Much of the 
thinning can occur as a result of sawtimber sales on a scale 
that provides for the economic stability of the forest 
dependent communities and still maintain the ecological 
integrity of the Forest. As far as the Spotted Owl is 
concerned, there are not any in this area and have not been 
here historically. This issue is a red herring as are most of 
the issues as they relate to endangered species. I have 
discussed this issue with many of the elders in the surrounding 
villages and they agree that the main change that is observable 
in regards to wildlife is exploding populations of Elk and the 
dwindling population of Mule Deer. This is not related to 
either logging, woodhauling or grazing, it is merely an 
indication of poor wildlife management on the part of the 
Department of Game and Fish and the United States Forest 
Service. When groups with an agenda of displacing rural people 
point to an indication of overgrazing, it is always the fact 
that we live in a dry State that makes it appear that way. 
Obviously there will be a shortage of grasses when there is a 
lack of precipitation and this becomes obvious as soon as the 
rains come. The old people know this and are deeply resentful 
when their livelihood is threatened by historical people who 
evoke emotional responses from the masses of people in Urban 
areas who know no better.
    The impact on local people is extreme because most people 
still use fire wood for heating and cooking. The local people 
use wild herbs as well as pinon nuts as part of their diet, and 
use the rocks, logs and gravel for building material for our 
homes. Most of us supplement our diet with deer, rabbit, 
grouse, turkey, fish and many other resources found in the 
forests that surround us. Seventy percent of the land in our 
rural villages are in hands of Federal Agencies, the State or 
Indian Tribes and we are therefore extremely vulnerable to 
shifting political winds that affect these Agencies.

[GRAPHIC] [TIFF OMITTED] T1104.001

[GRAPHIC] [TIFF OMITTED] T1104.002

[GRAPHIC] [TIFF OMITTED] T1104.003

[GRAPHIC] [TIFF OMITTED] T1104.004

[GRAPHIC] [TIFF OMITTED] T1104.005

[GRAPHIC] [TIFF OMITTED] T1104.006

[GRAPHIC] [TIFF OMITTED] T1104.007

[GRAPHIC] [TIFF OMITTED] T1104.008

[GRAPHIC] [TIFF OMITTED] T1104.009

[GRAPHIC] [TIFF OMITTED] T1104.010

[GRAPHIC] [TIFF OMITTED] T1104.011

[GRAPHIC] [TIFF OMITTED] T1104.012

[GRAPHIC] [TIFF OMITTED] T1104.013

[GRAPHIC] [TIFF OMITTED] T1104.014

[GRAPHIC] [TIFF OMITTED] T1104.015

[GRAPHIC] [TIFF OMITTED] T1104.016

[GRAPHIC] [TIFF OMITTED] T1104.017

[GRAPHIC] [TIFF OMITTED] T1104.018

[GRAPHIC] [TIFF OMITTED] T1104.019

[GRAPHIC] [TIFF OMITTED] T1104.020

Statement of Gerald L. Chacon, Rancher and Northern District Department 
    Head, New Mexico State University, Cooperative Extension Service

    Representative Chenoweth, as Chair of the Subcommittee on 
Forests and Forest Health, let me welcome you and your members 
to Northern New Mexico and to the Espanola Valley. It is an 
honor and privilege for me to testify before each of you on 
what I consider to be one of the most important issues to have 
ever faced rural New Mexicans--Forest Policy and Federal Laws 
which govern uses of public lands.
    This year marked the 400th anniversary of livestock 
production in Northern New Mexico. My own family has 
continuously raised livestock on our private and surrounding 
lands for at least the last 168 years.
    Each of you must clearly understand that nearly all of the 
area now part of the Carson and Santa Fe National Forests in 
Northern New Mexico were Spanish and Mexican Land Grants used 
to graze livestock, obtain drinking and irrigation water, to 
build homes, churches, and businesses which sustained our 
communities and families. Our people have always been land-
based livestock producers with a successful history of 
livestock production going back to ancestral Spain. Look on any 
Forest Service map in northern New Mexico, nearly every 
mountain, stream, spring and pasture are Spanish names and 
places.
    Today, as in our past, we have a proud history of serving 
the community and working with government, even when that same 
governance took community lands for the establishment of public 
domain. Still today, title to much of the forest land is not 
clear. Hopefully, you in Congress will allow communities to 
finally have the opportunity to prove ownership under a more 
fair process than what was historically given.
    There are currently just over 2,000 families grazing on 
U.S. Forest and BLM land in Northern New Mexico. These 
permitters run on the average less than 50 head. Eighty seven 
percent are Hispanic.
    There are 327 families using public land for grazing in Rio 
Arriba County alone.
    Public lands sustains 60 percent of these ranchers 
livestock forage needs each year. Total gross receipts from all 
livestock in this county range between $7.8 and $14.7 million. 
This industry is very significant for a county whose population 
already has a 10.7 percent unemployment rate and where 23.5 
percent of the families live below the national poverty level.
    There are 3.5 million total acres in this county with 1.3 
million U.S. Forest Service land and 50,000 BLM acres, 647,000 
acres of Indian land and 108,000 State land acres.
    The majority of resources available for our economic well 
being come through public lands. Access to these resources is 
key to our communities and cultures ability to survive.
    The processes that would allow continued access are largely 
threatened by misinterpretation and misuse of laws and policies 
originally intended to preserve and protect the environment of 
these lands.
    There are currently 29 species of animals alone listed on 
the State Threatened, Endangered Federal Threatened, Endangered 
and Candidate List in this county alone. This, coupled with 
NEPA, EIS, EA processes provides enough legal fodder to consume 
every Federal and State Agency, municipal and county 
government's budgets. This is currently the situation with U.S. 
Forest Service and the pending lawsuits against them.
    The single most disruptive force in our rural communities 
today is the misuse of the Endangered Species Act and the 
scores of procedures that are required to enact it. The legal 
interpretations of this once well-supported law have succeeded 
in driving wedges between Environmental organizations, 
ranchers, loggers, miners, the recreation industry and the U.S. 
Forest Service. More recently, cities, towns and county 
commissions have been forced to defend themselves and their 
constituents from the never ending problems the Endangered 
Species Act creates for them. Growing numbers of credible 
science organizations and institutions seriously criticize its 
overall effectiveness. Identifiable errors in the determination 
of what is endangered and threatened have been identified. 
Wrongful determinations of endangered and threatened status 
have been exposed. The loose and expansive nature of the 
language in the listing criteria are very problematic. Further, 
the record of recovery from the Act itself is seriously 
questioned by more of the science community.
    The immensity of problems and opportunities for legal 
wrangling are too large to even comprehend or to ever solve. 
Land-based people are doomed to a life in the courtroom.
    We desperately need your help to develop law and action 
plans that recover species with the involvement of land-based 
people, not in spite of them. Law and policy interpretations 
that remove people from the land are sure to fail in the long 
run. Law that puts people against people cannot help heal the 
environment or the economic status of rural communities. Law 
and policy of agencies which takes rights, property, punishes, 
fines and incarcerates is sure to fail in the long run.
    Rather, incentives for land-based people to participate 
willfully in conservation efforts have historically proved most 
effective. No law or policy in and by itself ever accomplished 
anything without the will and support of the people.
    One only has to look at what has been done working 
cooperatively to recover game species--ducks, geese, wild 
turkeys, elk, buffalo and many others, some of which were 
nearly extinct, now thrive.
    We have the science, the money and the will of the people 
to accomplish anything we set our collective minds to do. The 
government and the people should not expend all our financial 
mental and physical resource to fight each other in the 
courtroom. I choose to think we are smarter than that, and when 
given an equal and balanced opportunity to we will find a win 
for natural resources and a win for people. We need your help 
to balance the scale of opportunity. Rural Northern New 
Mexicans cannot outspend national Environmental organizations 
with endless streams of financial and legal resources. Poor 
science, laws without clarity, and policy interpreted by the 
whim of any individual without consideration for people, will 
only further worsen our problems.
    The more than $2 billion spent by agencies since 1989 for 
recovery would have gone a long way to diversify forest 
habitats had we allowed for sustained timber harvest, thinned 
overcrowded forests, developed watering for livestock and 
wildlife, used prescribed burns, controlled brushy species and 
otherwise enhanced wildlife habitats. Currently we lose 1 
percent of our forest ecosystem grasslands per year due to 
encroachment of trees. Catastrophic fires consume forest 
resources and the budgets of agencies who fight them. Our 
efforts to control invasive brush in grasslands is constantly 
derailed by budget, policy and the fear of agencies to use 
proven, safe, and cost-effective herbicides.
    Paperwork, hearings, budget, documentation, notification, 
are the business of agencies. No longer is range science, 
forestry, soil science, wildlife science and recreation the 
business of the U.S. Forest Service.
    I would like to conclude with the first paragraph of the 
Extension Workers Creed. It is good food for thought for all of 
us assembled here today.
        ``I believe in people and their hopes, their aspirations, and 
        their faith; in their right to make their own plans and arrive 
        at their own decisions; in their ability and power to enlarge 
        their lives and plan for the happiness of those they love.''
    Thank you.

                                Addendum

Specific Recommendations:

    1. Revise the Endangered Species Act to provide incentives 
for conservation of species rather then punish people and 
communities with listed species.
    2. Develop provisions for a peer review process of the 
nomination to prove status and necessary steps for recovery.
    3. Provide recurring funds for local communities and 
allotments to better maintain forest, range and water 
improvements to enhance overall forest health--possibly from 
Land and Conservation Fund.
    Return all or most of all User Fees to the land to improve 
and maintain forest health--keeping resources and communities 
economically healthy will return more dollars to the U.S. 
Treasury through taxes than User Fees.
                                ------                                


    Statement of Robert B. Luce, General Counsel, Rio Grande Forest 
                  Products, INC., Espanola, New Mexico

    Madam Chairman, Representative Redmond, and distinguished 
guests, my name is Robert Luce. I represent Rio Grande Forest 
Products, Espanola, New, Mexico. On behalf of Rio Grande, I 
would like to thank you for the opportunity to present 
testimony on such a critical issue as forest health and forest 
management in northern New Mexico. Frankly, it is good to have 
representatives who are concerned enough to bring the eyes and 
ears of Washington to Espanola.
    Rio Grande operates the largest sawmill in the State of New 
Mexico. The mill has been located in the Espanola valley for 
more than 20 years. We are the second largest employer in the 
valley with approximately 100 employees. With the addition of 
loggers, and truckers that supply the mill with logs, we 
estimate that there are more than 1,000 families in northern 
New Mexico and southern Colorado that are directly dependent on 
our mill for their economic survival.
    We currently produce approximately 35 million board feet of 
lumber per year, roughly enough wood to build 3,000 single 
family homes on an annual basis. The logs we process are 
harvested from public, tribal, and private lands utilizing the 
best management practices available. We do not encourage or 
endorse so-called ``clear cutting,'' and we do not strip the 
land of every merchantable tree. All of our logging operations 
are managed by three graduate, professional foresters working 
in conjunction with other foresters employed by the U.S. Forest 
Service, Bureau of Indian Affairs, and State of New Mexico 
Department of Forestry. It is our policy to implement and 
encourage harvesting standards and methods that leave an 
adequately stocked residual stand of young, healthy timber that 
promotes natural regeneration. This policy ensures that we will 
have an adequate timber supply for future generations. We have 
art ``eye to the future in New Mexico.''
    We believe that the most objective way to evaluate forest 
health and the effects of current Federal policy in New Mexico 
is to actually visit the timber lands. That way, you can 
compare the Federal timber lands with the private harvests that 
have occurred in the same region. Unfortunately, we can't make 
that type of trip today. So I have the next best thing for you 
to consider--photographs.
    The first three pictures that I will be showing you were 
taken on the Fort Apache Indian Reservation which is owned by 
the White Mountain Apache Tribe. This is an example of a well 
managed private forest. Since 1918 the Tribe has continuously 
harvested timber on 750,000 acres of forest land. In addition 
to selective harvesting, the Tribe has initiated controlled 
burns of 10,000 to 45,000 acres of timber land each year. As a 
result of this type of management, mayor catastrophic fires 
have occurred less frequently on the reservation as compared to 
the national forests. This is primarily because ``fuel 
ladders'' have been greatly reduced through systematic 
harvesting and controlled burning.
    The White Mountain Apache Tribe has sold approximately 50 
to 100 million board feet of timber to the Tribal sawmill and 
off-reservation sawmills on an annual basis for the past 30 
years. In the 1950's the timber inventory on the reservation 
was approximately 100 billion board feet. BLM's latest 
inventory reveals that there is still approximately 100 billion 
board feet of timber left standing on the reservation. In other 
words, after more than 30+ years of active timber harvesting 
and thinning operations, there has been no significant 
reduction in the forest inventory at White Mountain. This is a 
direct result of their well managed program of selective 
harvesting, and salvage operations combined with an active 
controlled burn program.
    The second set of pictures is from the Hondo Complex Fire 
which burned in June 1996 near the town of Questa, New Mexico. 
Due to current Federal policies, there has been no systematic 
logging, thinning, or controlled burning in this area as has 
occurred on the White Mountain Reservation. The result is a 
proliferation of ``fuel ladders'' and bug infestation. These 
conditions provide an excellent source of ignition and allow 
catastrophic fire runs like this one at Flag Mountain which 
threatened the town of Questa. 7,700 acres of timber was burned 
for no good reason. The Carson National Forest estimates 
approximately 4.1 million board feet of commercial timber was 
destroyed. Today, pockets of insects are breeding in the dead 
timber. These insects will spread to adjacent healthy timber 
stands, where they will thrive and kill healthy trees. Scrub 
oak and under brush have replaced what was a mixed conifer 
living forest. Now, over two years after the fire, only six 
small salvage sales have been prepared--less than 10 percent of 
the total salvage volume. Only three have been sold and only 
one of the salvage sales has been harvested. In all likelihood, 
most of the burned timber will be wasted and left to rot as a 
timeless memorial to failed policy upon failed policy.
    Now, is this a wise policy or should we follow the example 
set by the Jicarilla Apaches in northern New Mexico and the 
Southern Ute Tribe in southern Colorado. These Tribes lost 
8,500 acres in the Mount Archuleta Complex burn in June of 
1996. Less than 3 months after the ashes cooled, logging began 
to salvage the burned timber. The two tribes removed over 15 
million board feet of fire killed timber. As we speak 
reforestation and erosion control measures are being 
implemented to restore these areas and they are well on there 
way to reforestation.
    The last photograph that I would like to share with you is 
of the Oso Complex fire that burned 15 miles west of Espanola 
this last July. The Santa Clara Pueblo intends to sell 
approximately 2 million board feet of salvage timber from the 
Oso burn. Will the Santa Fe National Forest sell the remaining 
three million board feet of salvage or will it repeat the same 
mistake as occurred in the Carson National Forest following the 
Hondo Fire?
    In addition to wasting a renewable resource by increasing 
the risk of wild fire, and bug infestation, current Federal 
policy threatens the economic livelihood of those families in 
northern New Mexico who are dependent on logging and the public 
forests for survival. We need only look at small rural towns in 
Idaho, Oregon, Wash-

ington and Montana to see the results of the current policy. 
Just last week, Boise Cascade announced the closure of four 
more sawmills in our region. Since 1989 over 300 sawmills, pulp 
mills, and plywood plants have closed as a result of the 
harvesting reductions that have occurred on Federal timber 
lands. Over 35,000 employees have lost their jobs, and 
thousands of workers have had to look elsewhere for work. There 
is very little likelihood that these individuals will be 
reemployed in their hometowns or for that matter in the wood 
products industry in another area of the country.
    So for us, there are two issues: jobs and the waste of a 
renewable resource. Frankly, I would much rather see a well 
managed forest, like the one at White Mountain Apache 
Reservation than see the scorched hills of Hondo. As a company 
we realize and understand that the national forests must be 
managed responsibly so that this resource is available for 
future generations. At the same time, however, we must not lose 
sight of the fact that timber is a renewable resource. With 
that in mind, and especially considering the tragedy at Hondo, 
it is very hard to understand the rational underlying a Federal 
policy that places a virtual moratorium on harvesting timber in 
the national forests when the cost of such a policy is acres 
upon acres of burned timber, thousands of lost jobs, not to 
mention wasted lumber, and severe environmental degradation 
from the mud slides and soil erosion that follow.
    In closing, I would encourage each of you to visit the 
White Mountain Apache timber lands. They provide an excellent 
example of what our national forests could and should look 
like. Short of a personal visit you will have to rely on the 
photographs. As you consider these pictures, we would challenge 
you and the other members of the Committee on Resources to 
answer these two questions:

        1. Does our current land management policy protect the living 
        forest or does it actually promote the waste of a renewable 
        resource?
        2. Has the current land management policy reduced the risk of 
        wild fire or has it actually increased the risk of 
        environmental degradation?
    As you can see from the pictures, we believe that there is better 
way. In our view, Federal policy should follow the example that is 
being set by the White Mountain Apache Tribe and other privately 
managed forests if we are truly interested in doing the best possible 
job of manage Federal timber lands for everyone concerned.
    Thank you.

[GRAPHIC] [TIFF OMITTED] T1104.021
    
[GRAPHIC] [TIFF OMITTED] T1104.022
    
[GRAPHIC] [TIFF OMITTED] T1104.023
    
                     Statement of Bruce Klinekole,
    My name is Bruce Klinekole. I am a Mescalero Apache and I live on 
the Mescalero Reservation in South Central New Mexico. I am a member of 
the Board of Directors for the Mescalero Apache Cattle Growers and of 
the New Mexico Cattle Growers Association.
    I have been asked to give testimony before you today on forest 
health. First, let me thank you Congressman Redmond and Congresswoman 
Helen Chenoweth for allowing me to come before you today and give input 
on this very important subject.
    As you are aware, forests around the nation are in poor health due 
to lack of management. If you have visited the Lincoln National Forest 
recently, you would notice that parts of the Lincoln are no exception. 
This can be attributed to poor management practices on the Federal 
level.
    But if you visit the part of the Lincoln managed by the Mescalero 
Apache, you will notice something different. You will see a healthy 
forest, where wildlife and cattle thrive together, where timber is 
harvested and where we worship our creator.
    I would like to tell you about the steps we, on the Mescalero 
Reservation, have taken to insure that the forests in our care are 
preserved for generations to come--where we give back what we have 
taken.
    We are taught from a young age to respect the land we live on, to 
use it wisely and to give back what we have taken. It is by simply 
following these lessons that we have a section of forest that is in 
better health than those around us. We do graze cattle, we do harvest 
timber and do prescribed burns. I am here to tell you, when done 
correctly, these practices provide a lush landscape where everyone and 
everything benefit.
    On the Mescalero Reservation we participate in selective tree 
harvesting. We have done clear cuts before, but only when there is a 
severe outbreak of diseased trees due to mistletoe or bark beetles. 
After each timber harvest, many hours are spent cleaning up and 
gathering the debris left. The debris is then burned during the winter 
months, clearing the way for undercover to thrive.
    Currently, a six-man crew from the Mescalero Reservation, trained 
by our Branch of Forestry, is employed to check and mark trees in 
accordance with the Agency Forester's Timber Management Plan. Thinning 
crews are also employed to remove undesirable woody plants and trees 
from areas to provide better sunlight to the ground cover. These areas 
are eventually burned. Lush grasses sprout, providing grazing areas for 
wildlife and cattle. When done correctly, prescribed burning, and 
timber harvesting can have a most beneficial outcome.
    Recently, we have been working in conjunction with the Department 
of Agriculture on the Great Plains Conservation Plan. Under this ten 
year plan, Mescalero Apache Cattle Growers' and Bureau of Indian 
Affairs personnel laid pipelines and installed stock tanks for better 
water distribution to wildlife and cattle in the area. We have also 
worked on spring development. By developing springs in the area, we 
have provided a cheaper water source for not only our livestock, but 
for wildlife as well. We have also seen a decrease in soil erosion in 
the area.
    Our cattle producers also work to ensure the land is not 
overgrazed. Cattle are moved around and fenced to different areas at 
different points in time. We have seen a decline in soil erosion 
because of these practices. We have seen our grasses grow.
    If you should come down to the Mescalero Reservation, and our 
portion of the Lincoln National Forest, you will notice how beautiful 
our forest is. You will notice the wildlife and you will notice the 
cattle. You will notice that the reservation forestland is not a 
tinderbox waiting for the next lightening strike. You will notice a 
well cared for landscape.
    Understand that we have available to us the opinions of the Federal 
Government and its agencies, but our tribal advisors and tribal council 
have the final say in how we manage our land. We have chosen to manage 
it wisely. We have chosen to instill conservation practices, such as 
prescribed burning and responsible grazing and timber harvesting. We 
have not only benefited from these practices, but have used the land 
wisely, ensuring that it will be here for generations to come.
    Again, I thank you for the opportunity to testify before you. I 
thank you for the opportunity to relate that if our forests are managed 
properly; wildlife, forests and cattle can coexist.
                                 ______
                                 
Statement of Jake M. Vigil, President, Tio Gordito Cattle Association, 
                          El Rito, New Mexico
    Good afternoon, my name is Jake M. Vigil and I am representing the 
Tio Gordito Cattle Association. I want to thank the Subcommittee on 
Forests and Forest Health and Chairperson Chenoweth for allowing me the 
opportunity to testify to this oversight hearing. I would also like to 
thank Congressman Bill Redmond for bringing this important hearing to 
Espanola, New Mexico. It is my hope some good will come from my 
testimony. Make no mistake, I love the forest dearly, I do not want to 
see it harmed in any way. At the same time, I do not want to see the 
destruction of our culture and customs. Please forgive me, I am not an 
educated man. All of my life has been spent making a living on the 
Carson National Forest in the Tres Piedras District raising sheep and 
cattle with my father. It is important you understand that I know the 
forest, and I know it well. My family, the Vigil's settled Medanales in 
the early 1600 hundreds and tamed the tierra cimarone, or wild lands. 
As a young boy my father would take me to the high sierras for the 
summer to herd sheep. Those were the happiest days of my life. Sadly, 
over the years I have noticed a decline in the health of the forest. 
Not because of sheep and cattle. Years ago we grazed more livestock 
than they do today, but because of inappropriate forest service 
policies and the implementation of so-called ``environmental reforms'' 
my beloved land is suffering.
    We have bent over backwards to work with the Forest Service. This 
year we have already given up 23 days of grazing time on our permits 
due to what was referred to as ``production decline.'' We may possibly 
lose up to another 30 to 60 days at the end of the season due to a 
policy called ``40-60 utilization.'' This is a policy, derived from a 
formula dreamed up by the Forest Service and environmentalists behind 
closed doors, dictates utilization of 40 percent of the forage and 60 
percent is left behind. Because of this ridiculous policy 42 families 
will be affected and 3,000 head of cattle will be forcibly removed from 
the Carson National Forest.
    What I find interesting is that years ago we ran more livestock and 
the forest looked better than it does today. I believe it is due to the 
fact the Forest Service has invested so much money fighting the 
environmentalists in court, and so little is left for range 
improvements. I can hardly blame the Forest Service for making deals 
with the environmentalists. It is obviously cheaper to strike up a deal 
than it is to fight someone in court. Unfortunately, the ``cheap'' way 
out is not good for forest health, and it will ultimately mean the end 
of the Hispano culture.
    With me today are five pictures I want you to see. One will detail 
a grazed area, and the other is a picture of a non-grazed area. All of 
the pictures are taken from my ranch: Number 1 is a boundary fence 
between my forest service permit and private land. The one on the left 
side has never been grazed and the right has had livestock on it since 
1958. You will notice the right has many more different plants while 
the left is nothing but sage brush.
    Number two and three are areas adjacent to each other. You will 
notice the abundant vegetation in photograph two, while the space 
represented in photograph three could never support any livestock or 
wildlife whatsoever.
    Picture number four demonstrates the vegetation left behind when we 
left this pasture in July 28, 1998. Number five is an area cattle and 
wildlife never go because of the canopy under which nothing grows.
    I am always amazed that never once has an environmentalist 
consulted me, or my neighbors, and certainly never has one asked to see 
our ranches. I might add, none of us have ever been invited to one of 
their meetings.
    Environmentalists have the financial resources to try and make the 
forests into some idea of what they think the forests should look like. 
They do not realize grazing and logging are good for the land. As far 
as I am concerned, radical environmental groups are committing nothing 
less than a form of ethnic cleansing and are out to rid the forests of 
Hispanos by destroying our livelihood. The Forest Service, with 
approval from environmental groups, spend millions of dollars each year 
to recover artifacts and restore ruins. I guess a culture has to be 
dead for a thousand years before we try to save it.
    Again I thank you for your invitation. I hope I have done some 
good.
                                 ______
                                 
    Statement of Caren Cowan, New Mexico Cattle Growers' Association
    Let me begin by thanking you, Chairman Chenoweth, and members of 
the Committee for your interest in what is happening to rural families 
and economies in the Southwest at the hands of the Federal Government 
in concert with radical environmentalists. My name is Caren Cowan and I 
am here today representing the New Mexico Cattle Growers' Association.
    During the past several months the Cattle Growers' have been the 
coordinating group for the litigation that livestock producers have 
been forced into between the radicals and the Federal Government. I 
have been the individual responsible for communication between our 
attorneys and livestock producers as decisions are made.
    I have been asked to come here today to address the settlement 
agreement entered into between the U.S. Forest Service and the Forest 
Guardians. I stress the words ``settlement agreement'' because the 
Forest Service and their friends persist in calling the agreement a 
``stipulation.'' Our attorneys have taught us that a stipulation is an 
agreement that is court sanctioned. The agreement we are talking about 
is not now nor has it ever been court sanctioned. In fact, a Federal 
district judged refused to sign off on the agreement because livestock 
producers would not agree to it.
    As you know in October 1997 the Southwest Center for Biological 
Diversity filed a suit (the 666 case) against the Forest Service 
alleging endangered species claims. In December 1997 the Forest 
Guardians filed a similar suit (the 2562 case) but included clean water 
and other claims. It is my understanding the Arizona Cattle Growers' 
Association obtained intervener status in the 666 case.
    In early 1998, I was contacted by both the Forest Service and the 
Arizona Cattle Growers with urgent requests that the New Mexico Cattle 
Growers' intervene in the 2562 case. My directors made the decision to 
do so. At about the same time the Forest Service moved to join the two 
cases. In early March I participated in a conference call on the cases 
that included our attorneys, the Arizona Cattle Growers and their 
attorneys, representatives of the U.S. Justice Department, Forest 
Service and U.S. Fish & Wildlife Service, and representatives of both 
the radical green groups. Basically we listened to the greens and the 
feds discuss how things would proceed under a grazing consultation 
agreement reached between the Forest Service and Fish & Wildlife.
    A few days later we learned the Forest Guardians filed a motion for 
a preliminary injunction to immediately remove livestock from some 160 
allotments in New Mexico and Arizona. Although we had not yet been 
granted intervener status, our attorneys were allowed to prepare 
responses, which were due the end of March.
    About the first of April things began to pop. The cases were 
joined. Both New Mexico Cattle Growers and Arizona Cattle Growers were 
granted intervener status in the joined cases and the judge set a 
hearing date a mere two weeks away on the motion for preliminary 
injunction. Our attorneys immediately began preparing a case on behalf 
of the permittees.
    A few days into the process, our attorney called and reported that 
she had been told by the Justice Department that it was not necessary 
for the permittees to be concerned with defending themselves because 
the government was confident of their case. I called the Forest Service 
in Albuquerque and asked about the report. I was told that yes, the 
Forest Service was working hard to defend themselves and the livestock 
producers and they believed they had a good case.
    For that reason, I was surprised when our attorney called about a 
week before the scheduled hearing and said that a stipulation had been 
proposed. She had participated in a telephone call with the radical 
greens and the Justice Department and felt at that point that 
negotiations were going nowhere. On the Friday afternoon prior to the 
hearing, which was Good Friday, I again talked with our attorney. 
Although conversations on the stipulation had continued, she still felt 
no progress was being made.
    I arrived in Tucson mid-morning on April 13 to finalize preparation 
for the hearing and the picture had radically changed. Justice and the 
radical greens had negotiated through Easter weekend and late on Sunday 
night had come up with a draft stipulation. While our attorney was on 
the phone for the negotiations, she felt she had virtually no impact on 
what went on.
    I looked at the draft stipulation and consulted with my directors. 
There was no way we could agree to the stipulation. It would harm too 
many permittees. Our attorney advised Justice of our decision and that 
was the last we were consulted on anything.
    The preliminary injunction hearing, which was to commence on the 
following morning, was postponed until afternoon. At a little after 
1:00 p.m. we finally received a copy of the final draft of the 
stipulation. I was told that the Court received a copy at the same 
time.
    The magistrate judge began the hearing on the preliminary 
injunction with no opening arguments. He did not appear to be aware 
that there was a stipulation in the works. We listened to the radicals' 
witnesses that afternoon and the following morning. The Justice 
Department attorneys asked very few questions and none that appeared to 
offer any protection of the livestock producers. Our attorneys were 
allowed to cross-examine the witnesses.
    After the green witnesses, the Justice Department put on a few 
Forest Service witnesses who did nothing to defend their actions or the 
livestock producers and who admitted that there actions in the proposed 
stipulation would result in additional litigation.
    The magistrate judge then called a recess and asked all the 
attorneys into his chambers. The attorneys were told that the Federal 
district judge had denied the stipulation because the livestock 
producers would not be a party to it. Needless to say, we felt pretty 
good about the decision.
    That didn't last long. The radicals, the Forest Service and the 
Justice Department representatives literally went into a back room and 
came out with a settlement agreement they called a stipulation. This 
agreement is actually worse than the draft that had been presented to 
the Court.
    The next morning that agreement was presented to the magistrate 
judge who told the attorneys for the radicals and the Justice 
Department to sign it. The lead attorney for Justice stated that she 
was not authorized to sign such an agreement. The judge instructed her 
to sign it anyway until such time as the proper authorities could sign 
it. I have never seen anything but the agreement that was signed by the 
Justice attorney in Tucson.
    While we were still in Tucson our attorneys and the attorney for 
the Arizona Cattle Growers filed a motion for a temporary restraining 
order to delay the implementation of the agreement, which we believe 
violates several Federal laws. The Court denied the restraining order, 
but noted that if the Forest Service wanted fences built, they would 
have to bear the cost.
    There has been much speculation about when the Forest Service and/
or the Justice Department actually began negotiating the settlement 
agreement they ultimately entered into. My first knowledge of it was 
just a week prior to the Tucson hearing.
    However, I learned that in the weeks prior to the Tucson hearing, 
Forest Service personnel were on the ground in the Gila National Forest 
instructing permittees to build fences and stay off riparian areas 
without the required changes in annual operating plans (AOPs). Had 
those fences been built, those permittees would have given up their 
rights of appeal through the Forest Service's administrative policy or 
for a remedy in the courts.
    The Southwest Regional Forester has told our Congressional 
representatives that livestock attorneys declined to participate in a 
potential stipulation. That is simply not true. The livestock industry 
refused to sign an agreement that could be fatal to rural families and 
rural economies. When we refused to play the game, the government and 
their buddies took their toys and went elsewhere.
    In fact, I feel that the Forest Service is playing the old divide 
and conquer game. As I told you, the New Mexico Cattle Growers and the 
Arizona Cattle Growers were initially involved in this litigation. 
Immediately after the Tucson hearing, Forest Service personnel flew to 
Phoenix to meet with the Arizona Cattle Growers. While I don't know the 
specifics of that meeting, I do know that after the meeting that 
organization chose to withdraw from the proceedings.
    I find it interesting that the Forest Service chose to fly to 
Phoenix, at taxpayer expense, when they didn't drive the ten or twenty 
blocks from their office to mine in Albuquerque.
    The Forest Service has told Congress and the popular media that the 
settlement agreement was just what they already had plans to do, that 
the agreement merely formalized management practices that were already 
being implemented through AOPs. If that is the case, why have so many 
AOPs being amended since the agreement was put in place? If that is the 
case, why is the Forest Service telling permittees that they have a 
court order to make radical changes in operations?
    The Forest Service is telling the popular media that they are not 
forcing producers out of business. If that is the case why do I have 
producers selling cattle at the bottom of a terrible cattle market?
    The livestock industry spent tens of thousands of dollars to defend 
permittees at the hearing in Tucson. Actions of the government kept us 
from ever being able to present our side of the story.
    Your full Committee was told last month by one of the radical 
environmentalist's attorneys that they had the science to prove their 
case. I don't believe the government has ever forced them to prove that 
science. I for one would certainly like to see that science, and I know 
that the folks I represent agree. Why isn't the government willing to 
fight for our rights?
    You have been told in previous hearings that the radical greens are 
being funded by hundreds of thousands of dollars in donations from the 
East as well as in payments from the Federal Government when suits are 
settled. We are on the ground are paying for our fight through bake 
sales and dances and ropings.
    The legal bills have continued to mount since the hearing in Tucson 
as our attorneys have filed appeals of the changes in AOPs for 
permittees in New Mexico and Arizona in order to preserve their rights 
for continued court challenges.
    One final point that I would like to note that it is especially 
frustrating to hear from the Forest Service ``that you cowboys are 
going to have change. You can't keep doing things like you did 80 (or 
50 or 20 or 10) years ago.''
    As you know, livestock permittees work in concert with the Forest 
Service or the Bureau of Land Management. Annual operating plans are 
done ANNUALLY. The permittees are only allowed to do what the 
government says. My members tell me they have tried for years to get 
the agencies to let them utilize new and innovative management 
practices. They have been denied.
    Livestock producers are just like everyone else in this world. We 
want to do a better job and are continually educating ourselves on 
better ways to do our jobs. We are a generational business. If we don't 
take care of what we have, we have nothing to pass on.
    In addition, I am living proof that the cowboys have and do change 
their ways. I seriously doubt that 80 years or 20 years ago or 10 years 
ago or even five years ago somebody in a skirt would have been 
addressing about the plight of the cowboys.
    Thank you for your time.
                                 ______
                                 
  Statement of Palemon A. Martinez, Secretary-Treasurer, Northern New 
              Mexico Stockman's Assn., Valdez, New Mexico
    Chairman Helen Chenoweth:
    Your Subcommittee hearing on Forests and Forest Health in Espanola 
and Northern New Mexico is greatly appreciated. We are an area of 
limited financial resources and this approach gives us an opportunity 
to present our viewpoints. We are also appreciative of the sensitivity 
of Congressman Bill Redmond to arrange this hearing.
    I am the Secretary-Treasurer of the Northern New Mexico Stockman's 
Association and a grazing permittee on two Allotments in North Central 
New Mexico. My family has been involved in farming and ranching since 
Spanish settlement in this area and have dealt with Agricultural and 
Land Management agencies since their inception. I have been a part of 
this all my life.
    I would first like to point out an issue along with a research 
document that can give you an excellent overview of Northern New Mexico 
and its historical and inherent problems. Our Northern New Mexico 
Stockman's Association feeling the various Federal initiatives, 
policies and regulations along with the entry of the legally inclined 
and well funded environmental organizations was prompted to consider 
``Do we have any rights on the use of Public land, rights we always 
felt were inherent to our area and our culture?'' We had to find out. 
To do so we contracted with Michael C. Meyer, Ph.D, a noted University 
of Arizona Historian on Southwestern and Mexican history. This year Dr. 
Meyer completed his research entitled, The Contemporary Signifcance of 
the Treaty of Guadalupe Hidalgo to Land Use Issues in Northern New 
Monaco. This is a revealing legal and historical perspective of the 
common land uses under Spain and Mexican Law and subsequently under 
United States jurisdiction. We are providing you a copy of the Research 
publication as we have provided to our New Mexico Congressional 
Delegation. I would like to make the following observations:

          <bullet> The text is informative, interesting and relevant to 
        discussion of Northern New Mexico land use issues.
          <bullet> The Treaty of Guadalupe Hidalgo of 1848 raises some 
        fundamental issues of property protected for Mexican citizens 
        and their successors in interest in New Mexico as well as the 
        other Treaty States.
          <bullet> If Treaties as provided by the U.S. Constitution 
        Article VI, Section 2 are to be honored as if Treaties were the 
        constitution itself, how then does the Treaty of Guadalupe 
        Hidalgo apply to the protection of property rights concerning 
        our contemporary land use issues? Can more recent Federal Laws 
        such as Endangered Species Act, Clean Water Act, and others 
        supercede the Treaty protections, or are there other avenues? 
        How does Article V apply to property rights and takings issues 
        on either a historical or on current situations? Are these 
        Treaty issues similar to those of Native Americans as Protected 
        and researched by the U.S. Indians Claims Commission? We were 
        all considered Mexican Citizens at the time of the signing of 
        the Treaty of Guadalupe Hidalgo. Do we merit the same 
        considerations?
          <bullet> To not belabor the Research Report, I would lastly 
        call your attention to the section on ``Conclusions and 
        Recommendations'' pages 82-90. Although Congressman Redmonds 
        Land Grant Bill addressed some of these issues, we recommend 
        Congressional review of the above cited recommendation as 
        relate to all the natural resources--Land and Water along with 
        significance to issues related to todays hearings.
    We would like to call the Subcommittee's attention to certain 
Federal Land Management Agency Policies:

          <bullet> The U.S. Forest Service Southwest Region adopted a 
        ``Northern New Mexico Policy'' in 1969. This was done because 
        of the situation and uniqueness. We felt this was a positive 
        action and we recently recommended this policy continuation to 
        Regional Forester Towns, and was seemingly well received. We 
        understand that this Policy was also recommended by the Carson 
        and Santa Fe National Forests. We also heard that although 
        recommended, the legal reviews by higher level legal staff 
        rejected the ``POLICY'' and that ``POLICY'' could not be 
        different than elsewhere. WHAT IF WE CALLED IT ``NORTHERN NEW 
        MEXICO PHILOSOPHY''? The key is the approach and the 
        sensitivity to custom and culture as the case may be.
          <bullet> Grazing Advisory Committees were part of the 
        operational norm and were abolished. Every other institution 
        operates in similar fashion. We recommend reinstitution of 
        these committees to improve resource management. A worse evil 
        is moving all resource management to the courts. We believe 
        that is the wrong approach to the problems as well as to the 
        public land users. The exception may be those direct 
        beneficiaries who are on the litigant payroll.
          <bullet> Range management improvements and conservation 
        supported by Congress and the USFS in the 1950's, 1960's and 
        1970's. This was a needed effort with excellent results. We 
        needed those programs reinstated. We believe there would be 
        greater public support for Federal fund expenditures for these 
        programs than for the legal arena.
          <bullet> The Endangered Species Act may have appeared like a 
        needed and noble Act. The result has instead become a 
        nightmare, legal and scientific entanglement that will destroy 
        property rights, customs, cultures, bankrupt governments and 
        individuals and not produce the intended noble results. WE 
        RECOMMEND A REINVENTION OF THE ENDANGERED SPECIES ACT. WE ALSO 
        RECOMMEND A REDIRECTION OF THE SPECIES RECOVERY DIRECTLY RATHER 
        THAN ON SENSELESS LITIGATION.
          <bullet> Lastly, we have experienced positive cooperative 
        efforts on Forests and Forest Health by grazing permitters, 
        U.S.D.A. Forest Service and other interested parties and would 
        suggest this approach would be more practical, effective and 
        productive.
    Thank you four the opportunity to present this testimony before 
your Subcommittee.
                                 ______
                                 
[GRAPHIC] [TIFF OMITTED] T1104.024
                                 
[GRAPHIC] [TIFF OMITTED] T1104.025
                                 
[GRAPHIC] [TIFF OMITTED] T1104.026
                                 

</pre></body></html>
